App. 1
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
August Term 2018
(Argued: February 5, 2019
Decided: December 3, 2019)
Nos. 17-1956, 17-1969, 17-2844, 17-2866
----------------------------------------------------------------------------------------------------------------------------------------

UNITED STATES OF AMERICA,
Appellee,
-v. PABLO CALDERON, BRETT C. LILLEMOE,
Defendants-Appellants.1
----------------------------------------------------------------------------------------------------------------------------------------

Before: KEARSE, POOLER, and LIVINGSTON, Circuit
Judges.
Defendants-Appellants Pablo Calderon and Brett
C. Lillemoe appeal from judgments entered in the
United States District Court for the District of Connecticut (Hall, J.), convicting them of conspiracy to
commit bank and wire fraud, and wire fraud in violation of 18 U.S.C. §§ 1349, 1343. On appeal, the Defendants argue that (1) there was insufficient evidence
supporting their jury convictions under both statutes;
(2) the district court erred in giving a “no ultimate
harm” instruction to the jury; (3) the district court
1

The Clerk of Court is respectfully directed to amend the
caption as set forth above.

App. 2
plainly erred in failing to charge the jury that actual,
potential, or intended harm is an element of bank
fraud, 18 U.S.C. § 1344(2); and (4) the district court
abused its discretion in giving a modified Allen charge
to the deadlocked jury. The Defendants also appeal
from postjudgment orders of the district courts setting
restitution amounts, contending that the court abused
its discretion in directing the Defendants to pay over
$18 million in restitution pursuant to the Mandatory
Victims Restitution Act of 1996, 18 U.S.C. § 3663A. We
conclude that (1) there was sufficient evidence supporting the jury convictions; (2) the district court did not
err in giving the jury a “no ultimate harm” instruction;
(3) the district court did not plainly err in charging the
jury on the elements of bank fraud; (4) the district
court did not abuse its discretion in giving a modified
Allen charge to the jury; but (5) the district court
abused its discretion in ordering a restitution amount
of over $18 million to be paid to the United States Department of Agriculture because the Defendants did
not proximately cause financial losses equating to that
amount.
Accordingly, the restitution orders are REVERSED; the judgments of conviction are VACATED
to the extent that they ordered the Defendants to pay
restitution, and are otherwise AFFIRMED. We REMAND for entry of amended judgments omitting the
requirement for restitution.

App. 3
FOR APPELLEE:

MICHAEL S. MCGARRY (John
Pierpont, Sandra S. Glover, on the
brief ), Assistant United States
Attorneys, for John H. Durham,
United States Attorney for the
District of Connecticut, New Haven, CT.

FOR DEFENDANTAPPELLANT
BRETT C. LILLEMOE: DAVID C. FREDERICK (Brendan J.
Crimmins, Andrew E. Goldsmith,
Benjamin S. Softness, on the
brief ), Kellogg, Hansen, Todd, Figel & Frederick PLLC, Washington, D.C.
FOR DEFENDANTAPPELLANT
PABLO CALDERON:

DOUGLAS M. TWEEN, Linklaters
LLP, New York, NY, submitted an
opening brief; PABLO CALDERON,
Darien, CT, submitted a reply
brief pro se and argued orally.

DEBRA ANN LIVINGSTON, Circuit Judge:
Defendants-Appellants Brett C. Lillemoe (“Lillemoe”) and Pablo Calderon (“Calderon”) (together,
“Defendants”) appeal from their convictions for conspiracy to commit wire and bank fraud, 18 U.S.C.
§ 1349, and wire fraud, 18 U.S.C. § 1343, following a
jury trial in the United States District Court for the
District of Connecticut (Hall, J.). The Defendants’ convictions arose from their involvement in a scheme to
defraud two financial institutions—Deutsche Bank

App. 4
and CoBank—in connection with an export guarantee
program administered by the United States Department of Agriculture (“USDA”). The Defendants falsified shipping documents and presented these
documents to the banks, thereby facilitating the release of millions of dollars in USDA-guaranteed loans
to foreign banks.
The Defendants argue that the Government failed
to produce sufficient evidence at trial to support their
convictions. Specifically, they argue that the Government failed to demonstrate that, in altering these shipping documents, the Defendants made material
misrepresentations that deprived the banks of economically valuable information, as required to support
a conviction for wire or bank fraud, or conspiracy to
commit those offenses. They also argue that the district court erred in giving the jury a “no ultimate harm”
instruction, see infra Part II.A. plainly erred in charging the jury on the elements of bank fraud, 18 U.S.C.
§ 1344(2), and abused its discretion in giving the jury
a modified Allen charge, see infra Part III. Finally, they
assert that the district court abused its discretion in
ordering the Defendants to pay over $18 million in restitution pursuant to the Mandatory Victims Restitution Act of 1996 (“MVRA”), 18 U.S.C. § 3663A.
We conclude that there was sufficient evidence
presented at trial to support the jury’s conclusion that
the Defendants violated the wire fraud and conspiracy
statutes. We also hold that the district court did not err
in giving the jury a “no ultimate harm” instruction, did
not plainly err in charging the jury on the elements of

App. 5
bank fraud, and did not abuse its discretion in giving
a modified Allen charge to the jury. Finally, however,
we conclude that the district court abused its discretion in holding that the USDA was entitled to a restitution amount of $18,501,353 under the MVRA
because the Defendants did not proximately cause financial losses equating to that amount. Accordingly,
for the reasons given herein, we reverse the orders of
restitution, vacate so much of the judgments as order
restitution, and remand for the entry of amended judgments without such orders.
BACKGROUND
I.

Factual Background2

International business transactions involving the
sale of physical goods are presently carried out by use
of unique documents and contracts that serve to mitigate risk among the geographically disparate parties.
Such transactions remain highly dependent upon the
compilation and presentation of certain physical documents at different stages in the sales process. Indeed,
so crucial are the documents underlying these sales
that “international financial transactions” have long
been said to “rest upon the accuracy of documents rather than on the condition of the goods they represent.”
Banco Espanol de Credito v. State St. Bank & Tr. Co.,
385 F.2d 230, 234 (1st Cir. 1967). The Defendants
2

The factual background presented here is derived from the
parties’ submissions and the uncontroverted evidence presented
at trial.

App. 6
falsified bills of lading, one such category of shipping
documents, so as to render them compliant with contractual and regulatory requirements before their
presentation to two U.S.-based financial institutions.
A.

Letters of Credit in International Sales

Understanding the Defendants’ scheme requires a
basic comprehension of the use of letters of credit in
international sales, in this case sales of agricultural
goods. “Originally devised to function in international
trade, a letter of credit reduce[s] the risk of nonpayment in cases where credit [is] extended to strangers
in distant places.” Mago Int’l v. LHB AG, 833 F.3d 270,
272 (2d Cir. 2016) (internal quotation marks and citation omitted). As relevant here, the process begins with
the contract for the sale of goods negotiated between a
domestic exporter and a foreign importer. A typical
contract at issue in this prosecution would be one for
the sale of soybeans between an American exporter
and a Russian importer.
To avoid the risk of nonpayment by the foreign importer, the American exporter bargains for and includes in the contract a term that requires payment by
a confirmed and irrevocable letter of credit. The foreign
importer then applies to an “issuing bank” (usually a
foreign bank) to receive that letter of credit. The foreign-based bank then “issues” the letter of credit in favor of the American exporter, also referred to as the
“beneficiary.” The letter of credit itself constitutes an
“irrevocable promise to pay the [ ]beneficiary when the

App. 7
latter presents certain documents . . . that conform
with the terms of the credit.” Alaska Textile Co. v.
Chase Manhattan Bank, N.A., 982 F.2d 813, 815 (2d
Cir. 1992). At the same time, the domestic exporter
often works with a domestic bank (also referred to as
the “confirming” bank) and assigns its right to payment on the letter of credit to that domestic bank in
exchange for immediate payment of the contract price.
The payment on the part of the confirming bank to the
beneficiary triggers the issuing bank’s obligation to reimburse the confirming bank. Thus, the domestic exporter receives immediate payment for the sale from
the domestic bank, and the domestic bank is repaid
over time and with interest by the foreign bank. The
letter of credit thereby mitigates risk by assigning the
rights and obligations of the original contract to financial institutions rather than individual importers and
exporters. Alaska Textile, 982 F.2d at 815.
To obtain immediate payment of the contract price
upon assigning its right to payment to a domestic
bank, an exporter must compile a complete set of documents and present them to that confirming bank.
Among the documents necessary to cause a bank to release funds in conformity with a letter of credit is the
final contract of relevance here, the “bill of lading.” The
bill of lading is a contract between either the exporter
or the importer and an international carrier of goods,
obligating the carrier to transport the goods to the importer’s location or some other distant place. A bill of
lading “records that a carrier has received goods from
the party that wishes to ship them, states the terms of

App. 8
carriage, and serves as evidence of the contract for carriage.” Norfolk S. Ry. Co. v. James N. Kirby, Pty Ltd.,
543 U.S. 14, 18–19 (2004).3 The Defendants’ presentation of documents, including bills of lading, to confirming banks for inspection in order to induce the banks
to honor their obligations under various letters of
credit provided the basis for the prosecutions here.
When a confirming bank examines documents
submitted to it for the purpose of obtaining payment
on a letter of credit, the confirming bank has two duties: (1) to determine whether these documents conform to the terms of the letter of credit; and (2) to
respond if it finds any discrepancies. J.A. 893. The confirming bank never sees the goods at issue, only the
documents (including the bill of lading). J.A. 391. Because of this, it inspects the documents rigorously to
determine that they comply exactly with the requirements of the letter of credit—for the documents are its
only protection. Id.

3

According to the Defendants’ expert, negotiable bills of lading allow for the flexibility of selling goods while they are in
transit; non-negotiable bills do not. Regardless of whether a bill
of lading is negotiable or non-negotiable, only an original bill of
lading serves as a document of title; a copy of a bill of lading functions primarily as a receipt. Conversely, the Government’s expert
explained at trial that bills of lading are issued in sets that typically consist of three originals and any number of copies, which
are referred to as “copies non-negotiable.” In any event, the experts agree that a “copy non-negotiable” bill meaningfully differs
from either a “negotiable” or “original” bill, and we need not decide which expert is correct in order to resolve the Defendants’
sufficiency of the evidence challenge.

App. 9
Indeed, under the law of the majority of jurisdictions (including this one) if the documents provided by
the seller to the confirming bank did not “strictly” comply with the requirements of the letter of credit, the
issuing bank is entitled to refuse to honor the letter of
credit, and the confirming bank is therefore unable to
recover the money “assigned” to it by the seller. See
Voest-Alpine Int’l Corp. v. Chase Manhattan Bank,
N.A., 707 F.2d 680, 683–85 (2d Cir. 1983); see also Mago
Int’l, 833 F.3d at 272 (noting that the “absolute duty”
to honor the letter of credit “does not arise unless the
terms of the letter have been complied with strictly”
(internal quotation marks and citation omitted)). “This
rule [of strict compliance] finds justification in the
bank’s role in the transaction being ministerial, and to
require it to determine the substantiality of discrepancies would be inconsistent with its function.” Alaska
Textile, 982 F.2d at 816. If the documents were nonconforming but honored, an issuing bank could sue a
confirming bank for “wrongful honor.” See, e.g., Bank of
Cochin, Ltd. v. Mfrs. Hanover Tr. Co., 808 F.2d 209 (2d
Cir. 1986) (dismissing on the ground of estoppel only
because the issuing bank did not comply with the
requirements of the International Chamber of Commerce’s Uniform Customs and Practice for Documentary Credits (“UCP”), Article 8, calling for timely notice
of discrepancies in the documents).
As the Defendants themselves note, in a letter of
credit transaction “ ‘[b]anks deal with documents and
not with goods, services or performances to which the
documents may relate.’ ” Br. Def.-Appellant Lillemoe at

App. 10
5 (quoting Int’l Chamber of Commerce, ICC Uniform
Customs and Practice for Documentary Credits art. 5
(2007)); see also S.A. 98. In sum, “because the credit
engagement is concerned only with documents, . . .
[t]here is no room for documents which are almost the
same, or which will do just as well.” Alaska Textile, 982
F.2d at 816 (internal quotation marks and citation
omitted).
B. The GSM-102 Program and the
Defendants’ “Structured” Transactions
The GSM-102 program—which is administered by
USDA’s Foreign Agricultural Service on behalf of the
Commodity Credit Corporation (“CCC”), the USDA entity that issues the credit guarantees—provides an incentive for United States banks to participate in
letters of credit export transactions with developing
nations. As already made clear, the seller in such a
transaction enjoys immediate payment for the sale,
but the domestic bank must accept the risk that a foreign bank will default on its payment obligations, and
in circumstances in which redress may be difficult, if
not impossible, to obtain. To encourage U.S.-based
banks nevertheless to participate in such transactions,
the CCC, through the GSM-102 program, guarantees
the foreign bank’s repayment to the domestic bank,
generally covering ninety-eight percent of the foreign
bank’s obligation under the letter of credit. Every fiscal
year, the USDA makes $5.5 billion available under the
GSM-102 program.

App. 11
The Defendants were not the exporters of agricultural goods, but instead participated in the GSM-102
program as financial intermediaries, creating “structured” or “third party” transactions. Essentially, the
Defendants would pay a fee to “rent” or “purchase” program-eligible “trade flows,” i.e., the actual shipments of
goods guaranteed by the GSM-102 program, from
physical exporters and importers. Having secured the
requisite “trade flow,” the Defendants would arrange
for letters of credit between foreign and domestic
banks backed by the USDA guarantee. In exchange,
they received fees from the foreign banks. In orchestrating these GSM-102 transactions, the Defendants
were also responsible for the presentation of complying
documents to the confirming (in this case the domestic)
banks. See J.A. 1020 (Testimony of Lillemoe stating
“[It’s] not exactly a simple process . . . So my role is to
put together a lot of different pieces and make the
transaction work . . . we describe it as sort of lining up
the sun, the moon and the stars to align everything
and put it all together”).
C. Altering Bills of Lading and
the “Cool Express” Transaction
Participating in the GSM-102 program as a financial intermediary is not itself illegal. The Defendants
were convicted of wire fraud and conspiracy to commit
wire and bank fraud for falsifying bills of lading before
presenting them to two banks, Deutsche Bank and CoBank, in order to make the documents facially compliant with the terms of the relevant letters of credit and

App. 12
the requirements of the GSM-102 program. According
to the evidence presented by the Government at trial,
the Defendants applied for the GSM-102 program
guarantees before acquiring the requisite “trade flow.”
They would then purchase shipping documents and arrange for letters of credit between foreign and domestic
banks backed by this USDA guarantee. If the purchased documents failed to comply with the USDA’s
requirements as well as those provided for in the relevant letters of credit, the Defendants would simply falsify the documents to make them compliant. Of central
importance are two types of alterations, which were
explored at length in the trial described below: (1) the
Defendants’ redaction of the phrase “copy non-negotiable” and the stamping of the word “original” onto bills
of lading; and (2) the Defendants’ changing of certain
bills of ladings’ “on-board” dates.
Finally, all of the counts of wire fraud on which the
Defendants were convicted involved conduct relating
to a GSM-102 transaction between CoBank and the International Industrial Bank located in Russia (“IIB”).
The letter of credit for that transaction was issued by
IIB, and the goods were shipped on a vessel called the
“Cool Express.” J.A. 1074, 1077. To facilitate this “Cool
Express” transaction, Lillemoe “whited out” the word
“copy non-negotiable” on some of the bills of lading and
placed an “original” stamp on them. J.A. 1092–94.
These modified documents were forwarded to Calderon
for his review before their submission to CoBank. J.A.
1093–94. Following the global financial crisis in 2007,
IIB defaulted on its $6,000,000 in obligations to

App. 13
CoBank under the letter of credit. The USDA reimbursed the full amount available under the guarantee
(ninety-eight percent of the loan value).4
II.

Procedural History

On February 20, 2015, a grand jury returned a
twenty-three-count indictment against Lillemoe, Calderon, and their associate, Sarah Zirbes. The Indictment charged Lillemoe with one count of conspiracy to
commit bank fraud and wire fraud, nineteen counts of
wire fraud, one count of bank fraud, and one count of
money laundering. It charged Calderon with one count
of conspiracy to commit wire fraud and bank fraud,
nineteen counts of wire fraud, one count of bank fraud,
one count of money laundering, and one count of making a false statement. The Indictment alleged, in part,
that Lillemoe and Calderon conspired to commit bank
fraud and wire fraud by materially altering shipping
documents.
A.

The Trial

At trial, the Government offered a variety of evidence to demonstrate that the Defendants applied for
guarantees under the GSM-102 program, purchased
“trade flows” from third-parties that would not have
been compliant with the terms of the program, arranged letters of credit between foreign and domestic
4

cent.

The Defendants paid CoBank an upfront fee of three per-

App. 14
banks, falsified bills of lading, and then presented
those altered documents to Deutsche Bank and CoBank, causing the banks to disburse funds to a U.S. exporter according to the terms of letters of credit
associated with ten GSM-102 transactions. The Government introduced, inter alia, (a) the GSM–102 program files that contained the documents that were
submitted to the American banks along with (b) the
unaltered bills of lading that were provided to Lillemoe
and Calderon and the subsequently altered versions.
The Government also introduced the testimony of CoBank representative Holly Womack, Deutsche Bank
representative Rudolph Effing, USDA official John
Doster, and Federal Bureau of Investigation Special
Agent Steven West. The Government and the Defense
introduced competing experts on letters of credit transactions, and Lillemoe testified in his own defense.5 Because the significance of the Defendants’ alterations of
the bills of lading is the central issue on this appeal,
we catalogue the evidence offered on this question below.
1.

Stamping

The Government submitted evidence that the Defendants falsified bills of lading by redacting the word
“copy non-negotiable” or “certified true copy” (usually
via white out) and stamping the word “original” onto a
number of them. The Defendants do not dispute that
5

The Defendants also introduced various character witnesses.

App. 15
they modified the bills of lading in question nor that
the respective letters of credit governing these altered
bills of lading required presentation of a “copy of original on board . . . bill(s) of lading.” J.A. 1851. Moreover,
the Government presented evidence at trial that in order to submit a claim of loss to the GSM-102 program,
a bank would need to submit a copy of an original bill
of lading. J.A. 1791. The Government also submitted
evidence as to the Defendants’ knowledge of this requirement. See, e.g. J.A. 3617–18 (Email from Lillemoe
stating “just checked with the bank financing the GSM
deal. They need the copy of the [bill of lading] to state
‘Original’ in order to accept it”). CoBank representative Womack and Deutsche Bank representative Effing
testified respectively at the Defendants’ trial that they
would not have accepted the Defendants’ bills of lading
(and therefore would not have released funds on the
transactions) had they known that the Defendants had
stamped the word “original” onto “copy non-negotiable”
bills of lading. That is, if their banks “didn’t have a copy
of an original” they “wouldn’t have paid the funds.” J.A.
458. At trial, however, the Defense attempted to characterize the modifications to the bills of lading as insignificant, trivial changes that could not have affected
the confirming banks’ decisions as to whether to honor
the letters of credit. Lillemoe testified that he stamped
the word “original” in blue ink on the bills of lading in
order to make it “easier for everybody.” J.A. 1010. The
Government and Defense also offered competing expert testimony as to the significance of the stamping
activity.

App. 16
2.

Date Changes

The GSM-102 program guarantees also had restrictions limiting them to shipments that occurred
within specific date ranges. The Government introduced substantial evidence at trial demonstrating that
Lillemoe and Calderon changed the “on-board” notation printed on three bills of lading associated with two
GSM-102 transactions to state October 6, 2008, instead of October 5, 2008. J.A. 1057. The Defendants’ alterations placed the shipments within an acceptable
range. See 7 C.F.R. §§ 1493.20(d), 1493.60(f ) (2012)
(GSM-102 regulations stating that “date[s] of export
prior to the date” of the guarantee application “are ineligible for . . . guarantee coverage” and defining a
“date of export” as a bill of lading’s “on board date”).
Thus, the Government argued at trial that the Defendants altered dates on bills of lading to ensure each underlying transaction’s eligibility for a GSM-102
guarantee. The parties contest neither that the relevant goods were aboard the ships on October 6th, nor
that they were actually shipped on October 5th.
According to the Defense experts and Lillemoe, the
“on-board” date on a bill of lading has a functional significance and can fall on any date that the goods are
“on board” the ship. The Government presented a great
deal of evidence, however, in support of its claim that
the “on-board” date can only represent the date the
goods are actually shipped, and that this understanding was shared by all parties involved. For example,
the Government’s expert, Professor James Byrne, testified at trial:

App. 17
A. [The on-board date] is deemed to indicate
the date that the goods are shipped. The date
of shipment is extremely important in letter
of credit practice. It is important to banks. It
is important to applicants in most cases. And
so the date which is given as the on board or
loaded on board date is deemed to be the date
of shipment or shipping. Shipping date. . . .
Q.

Can that be a range of dates?

A. No. It is the date they are loaded on
board.
J.A. 1246. USDA Official Doster, who was responsible
for ensuring that “registrations were properly issued
for the GSM-102 program,” J.A. 522, also testified to
that effect, as well as to that date’s importance with
regard to the USDA guarantee. J.A. 455, 526 (“Q:
[D]oes the program ever guarantee [with respect to]
shipments before the on board date? A: No”); see also
J.A. 396 (defining “registration” as a record reflecting
“that the CCC has shipped that guarantee and received the fee and then they recorded that guarantee
in their books as . . . a guarantor obligation on behalf
of the CCC”).6
6

The Government also presented evidence at trial that the
Defendants shaded blank “consignee” fields (which designate the
receiving party of the goods) on six bills of lading, allegedly to
make it less “obvious” that the consignee fields had been whitedout. J.A. 1018. The Defense offered evidence that the fields were
whited-out to protect the confidentiality of the consignee. See J.A.
887–88. The Defendants were acquitted of all of the substantive
counts of wire fraud that were connected to this “shading” activity.

App. 18
B.

The Jury Verdict and Post-Trial Motions

On November 3, 2016, after hearing eighteen days
of evidence, the jury began its deliberations. The jury
deliberated for about a week, before stating that it had
“concluded” deliberations, but informing the court that
it was “deadlocked” on some counts. J.A. 1352. The
court decided to give a modified Allen charge, which
encouraged the jury to continue deliberating (discussed, infra Part III). After receiving the Allen charge,
the jury returned a verdict of guilty for Lillemoe on
Count One of conspiracy and Counts Two through Six
of wire fraud, and it returned a verdict of guilty for Calderon on Count One of conspiracy and Count Six of
wire fraud.7 The Defendants were acquitted on the
other counts of wire fraud, bank fraud, money laundering, and false statements. Following the guilty verdict,
the district court sentenced Lillemoe to fifteen months’
imprisonment to be followed by three years of supervised release, and it sentenced Calderon to five
months’ imprisonment. The Court also ordered forfeiture in the amount of $1,543,287.60 from Lillemoe and
$63,509.97 from Calderon.
Lillemoe and Calderon each filed a motion for a
judgment of acquittal pursuant to Rule 29 of the Federal Rules of Criminal Procedure and a motion for a
new trial pursuant to Rule 33. In an order dated March
16, 2017, the district court denied both motions. United
States v. Lillemoe, 242 F. Supp. 3d 109, 115 (D. Conn.
2017). On September 11, 2017, the district court
7

The jury acquitted Zirbes on all counts.

App. 19
entered separate restitution orders as to both Defendants. United States v. Lillemoe, No. 15-CR-25 (JCH),
2017 WL 3977921, at *1 (D. Conn. Sept. 11, 2017). The
district court held that the USDA was entitled to an
order of restitution of $18,501,353 after reimbursing
the banks in the GSM-102 program for various transactions with which the Defendants were involved. Id.
The district court also ordered the Defendants to pay
CoBank $305,743.33. Id. at *2. Each defendant filed
timely notices of appeal from the judgment and the
restitution order entered against him.
DISCUSSION
The Defendants raise a variety of challenges to
their respective convictions and the ensuing restitution orders imposed by the district court. Many of these
challenges relate to the Defendants’ central contention
that their alterations of the bills of lading were not and
could not have been fraudulent. Ultimately, we reject
that central contention. We do conclude, however, that
the district court abused its discretion in fashioning
the restitution orders at issue here.
I.
The Defendants first challenge the sufficiency of
the evidence underlying their convictions for wire
fraud and conspiracy to commit wire and bank fraud.
The Defendants concede that they modified bills of lading in connection with various international transactions guaranteed by the GSM-102 program, but they

App. 20
argue that the Government failed to produce sufficient
evidence at trial to support the jury’s determination
that this conduct satisfied the elements of wire or bank
fraud (or conspiracy to commit the same). We disagree
and find no reason to upset the jury’s determination on
this question.
We note at the outset that a defendant who challenges the sufficiency of the evidence to support his
conviction “faces an uphill battle, and bears a very
heavy burden.” United States v. Mi Sun Cho, 713 F.3d
716, 720 (2d Cir. 2013) (internal quotation marks and
citation omitted). In considering such a challenge,
“[w]e must view the evidence in the light most favorable to the government, crediting every inference that
could have been drawn in the government’s favor, and
deferring to the jury’s assessment of witness credibility.” United States v. Baker, 899 F.3d 123, 129 (2d Cir.
2018) (internal quotation marks and brackets omitted). “Although sufficiency review is de novo, we will
uphold the judgment of conviction if any rational trier
of fact could have found the essential elements of the
crime beyond a reasonable doubt.” United States v.
Martoma, 894 F.3d 64, 72 (2d Cir. 2017) (internal quotation marks and brackets omitted).
The essential elements of wire fraud are “(1) a
scheme to defraud, (2) money or property as the object
of the scheme, and (3) use of . . . wires to further the
scheme.” Fountain v. United States, 357 F.3d 250, 255
(2d Cir. 2004) (internal quotation marks and brackets
omitted). Similarly, the federal bank fraud statute
criminalizes the “ ‘knowing execution’ of a scheme to

App. 21
‘defraud a financial institution.’ ” United States v. Bouchard, 828 F.3d 116, 124 (2d Cir. 2016) (quoting 18
U.S.C. § 1344) (brackets omitted). Thus, both wire
fraud and bank fraud require the Government to prove
that the defendant had an intent to deprive the victim
of money or property. Moreover, to establish the existence of a scheme to defraud, the Government must
prove the materiality of a defendant’s false statements
or misrepresentations. United States v. Weaver, 860
F.3d 90, 94 (2d Cir. 2017). The Defendants argue that
(1) the Government failed to offer sufficient evidence
as to the “materiality” of their alterations to the bills
of lading; and (2) that the Government failed to present
sufficient evidence that they intended to deprive the
victim banks of money or property. We take each of
these arguments—and reject them—in turn.
A.
We first consider the Defendants’ materiality
claim. The wire and bank fraud statutes do not criminalize every deceitful act, however trivial. As noted
above, to sustain a conviction under these statutes, the
Government must prove that the defendant in question engaged in a deceptive course of conduct by making material misrepresentations. Neder v. United
States, 527 U.S. 1, 4 (1999). “To be ‘material’ means to
have probative weight, i.e., reasonably likely to influence the [bank] in making a determination required to
be made.” United States v. Rigas, 490 F.3d 208, 234 (2d
Cir. 2007). As the Supreme Court has put it, a material
misrepresentation has “a natural tendency to

App. 22
influence, or [is] capable of influencing, the decision of
the decisionmaking body to which it [is] addressed.”
Neder, 527 U.S. at 16 (internal quotation marks and
citation omitted). Where, as here, a “bank’s discretion
is limited by an agreement, we must look to the agreement to determine what factors are relevant, and when
a misstatement becomes material.” Rigas, 490 F.3d at
235. All of these specifications of the materiality inquiry target the same question: would the misrepresentation actually matter in a meaningful way to a
rational decisionmaker?
The Defendants argue that their alterations to the
bills of lading could not have been material to the
banks. They point to United States v. Litvak, 808 F.3d
160 (2d Cir. 2015), where we held that a defendant’s
admitted misstatements were not material to the
Treasury Department because the Government had
submitted no evidence demonstrating that these misstatements were capable of influencing a Treasury Department decision. Id. at 172. Instead, the evidence
presented at trial established that the Treasury was
“kept . . . away from making buy and sell decisions”
and retained “no authority to tell investment managers which [security] to purchase or at what price to
transact.” Id. (internal quotation marks, brackets, and
citation omitted). Similarly, in Rigas, we held that because there was no evidence that the Defendants’ misstatements there would have influenced the banks’
investment decisions as to what interest rate to charge,
those misstatements were not material. 490 F.3d at
235.

App. 23
The Defendants argue that the banks here, like
the Treasury Department in Litvak and the banks in
Rigas, retained limited discretion in rejecting the documents, and that the Government offered insufficient
evidence that the changes made to the bills of lading
were capable of influencing the banks’ decisions. Specifically, the Defendants first argue that the domestic
banks’ decisions as to whether to release the funds for
these transactions were not discretionary at all, but
were instead governed by the terms of the letters of
credit, and contingent only on the banks’ being presented with evidence that the shipment was program
compliant. Thus, because the bills of lading appeared
to be compliant with the letters of credit and the GSM102 program requirements, the argument goes, the
banks had no discretion to reject them and any alterations were immaterial.
We reject this argument. As the court below described it, the Defendants essentially assert that “if the
bank is presented with a document altered carefully
enough,” the bank lacks discretion to decline to honor
the letter of credit and the misrepresentations therefore lack materiality. Lillemoe, 242 F. Supp. 3d at 117.
In other words, under the Defendants’ theory, the better the fraudster, the less likely he is to have committed fraud. We decline to reverse the jury’s rejection of
this argument, which would entail countenancing any
and all falsifications of documents involved in these or
similar transactions, as long as they were carried out
with sufficient skill.

App. 24
The Defendants next argue that the bills of lading
they provided fulfilled the obligations of the letters of
credit prior to their altering them. Therefore, their
theory goes, the Defendants needlessly modified the
documents because, in any event, the bills of lading already fulfilled the function of the “required document[s]” even if they were altered in minor ways. Br.
Def.-Appellant Lillemoe at 27. The Government offered
substantial evidence at trial, however, that the banks
could have and would have rejected the bills of lading
had they not been altered or had the banks known of
the specific alterations at issue. The relevant letters of
credit clearly called for “copies of original” bills of lading, as did the GSM-102 program, see, e.g. J.A. 1851–54
(requiring a copy of an “original on board . . . bill(s) of
lading”), 1791 (requiring “a true and correct copy” of
“the negotiable . . . bill(s) of lading”), and the program
guarantees had restrictions limiting them to shipments that occurred within specific date ranges. J.A.
526.
Given these requirements, it is not surprising that
CoBank representative Holly Womack and Deutsche
Bank representative Rudolph Effing testified that
their respective banks would have declined to go
through with the transactions at issue had they known
about the specific alterations the Defendants made to
the bills of lading. See, e.g. J.A. 458 (testimony of Womack that if the confirming bank “didn’t have a copy of
an original on board, original bill of lading” it “wouldn’t
have paid the funds” because “we [wouldn’t] have a
complying set of documents so we wouldn’t have an

App. 25
obligation under the [letter of credit] [from the] issuing
bank”); J.A. 470 (testimony of Womack that she would
not have accepted the unaltered bill of lading prior to
the Defendants’ date change because it would have
made the document non-compliant and “[w]e wouldn’t
be able to file a claim [with the USDA] and be paid if
the bank defaulted on the obligation”); J.A. 421 (testimony of Effing that “if any of the information that’s on
that document is not in compliance with the requirements on the program or letter of credit, then we just
can’t accept it”). After all, to submit a claim to the
USDA, the banks had to submit these documents and
certify that they were “true and correct copies of the
originals that [they] received.” J.A. 463. The testimony
of USDA Official Doster, moreover, buttressed this testimony as to the materiality of the Defendants’
changes, J.A. 548–49, as did the Government’s expert,
who testified as to the functional significance of the
Defendants’ changes. J.A. 1248–49. For example, to
qualify for the already-secured USDA guarantee, the
shipments involved had to have occurred on or after
October 6, 2008. The Defendants’ alterations implicated compliance with that requirement.
Additionally, the Government produced several of
the Defendants’ own communications, which spoke to
the materiality of the Defendants’ changes. See J.A.
3616 (e-mail from Lillemoe stating that “we’ll need a
copy [of ] the ORIGINAL [bill of lading]. We cannot execute with the ‘Non-Negotiable’ version”); J.A. 3617–18
(e-mail from Lillemoe stating “just checked with the
bank financing the GSM deal. They need the copy of

App. 26
the [bill of lading] to state ‘Original’ in order to accept
it.”); J.A. 1907 (e-mail from Lillemoe stating “[f ]or us
we need [bills of lading] to state ‘Original’ and that are
signed. We’ll simply white out the ‘Copy Non-Negotiable’
on the signed copies and stamp ‘Original’ ourselves.
So we’re now OK on the [bills of lading].”); J.A. 2343
(e-mail from Lillemoe to Calderon describing a date
change as “[n]ot my best work, but good enough for
now”). These statements provide additional evidence
that the confirming banks needed to receive copies of
“original” bills of lading with specific “on-board” dates
in order to honor their obligations under the letters of
credit. They therefore provide further support for the
conclusion that the banks could have and would have
rejected non-conforming documents such as those at
issue here, and that the discrepancies were material to
the GSM-102 guarantees.
In sum, the Government produced a variety of testimonial and documentary evidence demonstrating
that the Defendants falsified documents in order to
make them appear to be compliant with the terms of
the governing letters of credit and the USDA program.
The jury was also presented with substantial evidence
that had the bank officials known about those specific
types of alterations they would not have accepted those
documents and therefore would not have entered into
the transactions at issue. We conclude, in light of the
evidence described above and marshalled at trial, that
the Government presented sufficient evidence for the
jury to conclude that the Defendants’ misstatements
were material.

App. 27
B.
The Defendants next argue that the Government
failed to produce sufficient evidence to support the
jury’s conclusion that their scheme “contemplated
some actual harm or injury to their victims,” United
States v. Novak, 443 F.3d 150, 156 (2d Cir. 2006) (emphasis, quotation marks, and citation omitted), a necessary element of their offenses of conviction. As we
have often observed, for the purposes of satisfying the
elements of mail, wire, or bank fraud, a victim can be
deprived of “property” in the form of “intangible” interests such as the right to control the use of one’s assets.
United States v. Carlo, 507 F.3d 799, 801–02 (2d Cir.
2007). “[M]isrepresentations or non-disclosure of information” can support a conviction under the “right to
control” theory if “those misrepresentations or nondisclosures can or do result in tangible economic
harm.” United States v. Finazzo, 850 F.3d 94, 111 (2d
Cir. 2017). In particular, this Court has upheld convictions where misrepresentations “exposed the lender
. . . to unexpected economic risk.” United States v.
Binday, 804 F.3d 558, 571 (2d Cir. 2015).
The Government produced a variety of evidence to
support the jury’s finding that the Defendants’ falsifications exposed the confirming banks to severe economic risks across two dimensions. First, the
Government produced evidence that the modifications
to the bills of lading exposed the banks to risk of default or non-reimbursement from the foreign banks
because these modifications sought to hide the true nature of the non-conforming documents. See, e.g., J.A.

App. 28
459 (CoBank representative Womack testifying that
“we need to have [compliant] documents to have the
issuing [letter of credit] . . . repay us”); J.A. 1249 (Government expert Professor Byrne stating that only the
issuing bank can propose a change to the terms of a
letter of credit). As recounted above, a confirming bank
must determine if the presentation is compliant with
the terms of a letter of credit, and it can reject noncompliant documents. This Circuit has emphasized in
the civil context that documents’ compliance with the
terms of a relevant letter of credit should generally be
analyzed under a standard of “strict compliance,” a
standard followed by a majority of courts. See Mago
Int’l, 833 F.3d at 272. And the economic significance of
the precise accuracy of the documents (including the
bills of lading) was testified to at trial. See, e.g., J.A. 405
(testimony of Deutsche Bank representative Effing,
noting that accuracy is “[s]uper important. Because
that’s how we determine . . . whether all the [letter of
credit’s] terms and conditions are fulfilled”).
The Defendants highlight that:
Our cases have drawn a fine line between
schemes that do no more than cause their victims to enter into transactions they would
otherwise avoid—which do not violate the
mail or wire fraud statutes—and schemes
that depend for their completion on a misrepresentation of an essential element of the bargain—which do violate the mail and wire
fraud statutes.

App. 29
Binday, 804 F.3d at 570 (quoting United States v.
Shellef, 507 F.3d 82, 108 (2d Cir. 2007)). According to
the Defendants, the victim banks got “what [they] bargained for” because they made “valid, 98%-guaranteed,
interest-bearing loans to USDA-approved, developingworld foreign banks.” Br. Def.-Appellant Lillemoe at
24. But the Defendants ignore that the confirming
banks did not receive “what they bargained for” because they bargained for a set of documents that complied with the letters of credit and satisfied the USDA
guarantee requirements.
Second, the modifications increased the risk that
the USDA would decline to reimburse the banks in the
event of a foreign bank’s default. The evidence amply
established that the Defendants falsified documents
that were not in accordance with the governing GSM102 regulations to make them guarantee-eligible. For
example, the Government produced evidence at trial
that, on three bill of lading copies associated with two
GSM-102 transactions, the Defendants changed the
printed “on-board” date of October 5, 2008, to October
6, 2008. For the transactions at issue to qualify for the
already-secured USDA guarantee, the shipments involved had to have occurred on or after October 6, 2008.
As noted above, several parties testified to the significance of this change at trial. For instance, USDA official Doster testified as follows:
A: When the [good] is loaded onto the vessel,
a bill of lading is issued. And on that bill of
lading is what’s called a clean on board date.
The clean on board date is the date that’s

App. 30
stamped that is considered the date of the export.
Q:

Is that an important date?

A: This is an important date. For one, it is
important because it can determine ownership . . . The on board date . . . establishe[s]
that ownership has passed. Our guarantee
specifies the date range . . . through which you
may export. So the on board date on the bill of
lading is the date you would look at to determine if the exporter is falling within the terms
of the guarantee. . . .
Q: And does the program ever guarantee
[with respect to] shipments before the on
board date?
A:

No. No.

J.A. 524; see also 7 C.F.R. §§ 1493.20(d), 1493.60(f )
(2012) (GSM-102 regulations stating that “date[s] of
export prior to the date” of the guarantee application
“are ineligible for . . . guarantee coverage” and defining
a “date of export” as a bill of lading’s “on board date”).
Doster’s testimony was supported by that of the Government’s expert, Professor James Byrne, who stated
at trial that an “on board date” is “extremely important
in letter of credit practice” and refers only to “the date
[the goods] are loaded on board,” and that he had
“never” heard of the on-board date as being a “range”
of dates. J.A. 1246–47. Similar testimony was also
offered as to the significance of the Defendants’
“stamping” activity on the banks’ ability to obtain reimbursement from the USDA. See, e.g., J.A. 459. For

App. 31
example, the Government presented substantial evidence that in order to submit a claim of loss to the
GSM-102 program, a bank would need to submit a copy
of an original bill of lading. J.A. 1791.
The GSM–102 regulations in effect at the time
provided that an assignee could not be held liable for
an exporter’s misrepresentations of which the assignee
lacked knowledge. See 7 C.F.R. § 1493.120(e) (2012).
This provision, however, does not remotely suggest, as
the Defendants would have it, that there was insufficient evidence that they contemplated any harm to the
banks. As the district court noted, a confirming bank
seeking indemnification pursuant to the GSM-102 program can rely on this provision only if “the assignee . . .
has no knowledge.” Lillemoe, 242 F. Supp. 3d at 119.
Such a question could certainly have resulted in “protracted and costly litigation” as to whether the confirming bank “had knowledge of the nature of the
documents it had accepted.” Id.; see also United States
v. Frank, 156 F.3d 332, 335 (2d Cir. 1998) (finding intended harm proven where defendant waste disposers
made misrepresentations to their customer that “could
have subjected the [customer] to fines and to the loss
of its environmental permit”). And the jury did not
need to speculate as to the likelihood of such a dispute:
USDA official Doster, who again, was responsible for
ensuring that registrations were properly issued for
the GSM-102 program, specifically testified that the
Defendants’ changes put the banks at risk of nonreimbursement. See J.A. 548; see also J.A. 2586.

App. 32
The Government presented a great deal of evidence that the Defendants’ submission of falsified,
non-compliant documents exposed the victim banks to
the risk of “actual harm or injury” on multiple dimensions. We therefore decline to reverse the jury’s determination that the Defendants’ scheme contemplated
economic harm.
II.
The Defendants next challenge two jury instructions issued by the district court, only one of which
they objected to at trial. “[W]e review a properly preserved claim of error regarding jury instructions de
novo,” but we will reverse “only where, viewing the
charge as a whole, there was a prejudicial error.’ ”
United States v. Coplan, 703 F.3d 46, 87 (2d Cir. 2012)
(internal quotation marks and citation omitted). If a
defendant fails to object to a jury instruction at trial,
however, a plain error standard of review applies on
appeal. Fed. R. Crim. P. 30(d), 52(b). With these standards in hand, we consider and reject each of these
challenges in turn.
A.
First, the Defendants challenge the district court’s
decision to give a “no ultimate harm” charge to the jury.
A “no ultimate harm” instruction advises the jury that
“where some immediate loss to the victim is contemplated by a defendant, the fact that the defendant believes (rightly or wrongly) that he will ‘ultimately’ be

App. 33
able to work things out so that the victim suffers no
loss is no excuse for the real and immediate loss contemplated to result from defendant’s fraudulent conduct.” United States v. Rossomando, 144 F.3d 197, 201
(2d Cir. 1998) (quoting 2 Leonard B. Sand et al., Modern Federal Jury Instructions § 44.01 at 44-35). Such a
charge is “proper where (1) there was sufficient factual
predicate to necessitate the instruction, (2) the instruction required the jury to find intent to defraud to convict, and (3) there was no evidence that the instruction
caused confusion.” United States v. Lange, 834 F.3d 58,
79 (2d Cir. 2016). The district court declined to include
a “no ultimate harm” charge in the preliminary jury
instructions, but it changed course after the Defendants’ attorneys made several references at trial to the
fact that the banks were ultimately insulated against
immediate financial loss by the USDA guarantees. See,
e.g., J.A. 501 (calling on witness to confirm that banks
were “covered 101 percent on this deal”).
The district court’s “no ultimate harm” instruction
satisfies all three of the above-mentioned factors. First
and foremost, the Defendants’ trial strategy, which focused on the fact that the banks were “ultimately” reimbursed for their losses by the USDA, see Br. Def.Appellant Lillemoe at 42; Br. Def.-Appellant Calderon
at 52, created the “factual predicate” necessitating the
charge. Lange, 834 F.3d at 79. The district court simply
instructed the jurors that they should not acquit on the
basis of the Defendants’ asserted belief that things
would all work out in the end—that the USDA would,
in any event, guarantee the transactions—if they

App. 34
nonetheless found that the Defendants intended to deceive the banks as to the economic risks involved ex
ante. That instruction comports with our holding in
United States v. Ferguson, 676 F.3d 260 (2d Cir. 2011),
where we upheld a “no ultimate harm” instruction that
“ensured that jurors would not acquit if they found
that the defendants knew the [transaction] was a
sham but thought it beneficial for the stock price in the
long run.” Id. at 280. In Ferguson, we reasoned that
“the immediate harm in such a scenario is the denial
of an investor’s right to control her assets by depriving
her of the information necessary to make discretionary
economic decisions,” and that the absence of ultimate
harm to the stock price did not vitiate that more immediate harm to victims. Id. (internal quotation marks
and citation omitted). We reason similarly here.
The second and third factors are even more easily
satisfied. The district court’s instruction indisputably
required the jury to find intent to defraud to convict.
See, e.g., J.A. 1310 (“A genuine belief that the scheme
never exposed the victim to loss or risk of loss in the
first place would demonstrate a lack of fraudulent intent.”). Finally, there was no evidence that the instruction caused confusion. Cf. Rossomando, 144 F.3d at
199, 203 (jury request that the court clarify its “no ultimate harm” instruction demonstrated “evident confusion” resulting from instruction). Given the foregoing
analysis, we find no error in the district court’s “no ultimate harm” instruction under the circumstances of
this case.

App. 35
B.
The Defendants also challenge—without having
done so below—the district court’s jury instructions regarding the elements of bank fraud. Because the Defendants did not object to this portion of the jury
charge at trial, we review the district court’s instructions for plain error here. See Fed. R. Crim. P. 52(b);
accord Johnson v. United States, 520 U.S. 461, 466–67
(1997). Under the plain error standard:
[A]n appellate court may, in its discretion, correct an error not raised at trial only where the
appellant demonstrates that (1) there is an error; (2) the error is clear or obvious, rather
than subject to reasonable dispute; (3) the error affected the appellant’s substantial rights,
which in the ordinary case means it affected
the outcome of the district court proceedings;
and (4) the error seriously affects the fairness,
integrity or public reputation of judicial proceedings.
United States v. Marcus, 560 U.S. 258, 262 (2010) (internal quotation marks and citation omitted); see also
United States v. Botti, 711 F.3d 299, 308 (2d Cir. 2013).
Under 18 U.S.C. § 1344, bank fraud is defined as
the knowing execution of “a scheme or artifice—(1) to
defraud a financial institution; or (2) to obtain any of
the moneys, funds, credits, assets, securities, or other
property owned by, or under the custody or control of,
a financial institution, by means of false or fraudulent
pretenses, representations, or promises.” The district
court instructed the jury on these elements,

App. 36
specifically explaining that the defendant must have
“executed or attempted to execute the scheme with the
intent to obtain money or property from Deutsche
Bank.” J.A. 1315 (emphasis added). With respect to
that intent requirement, the court elaborated that “the
Government must prove that the defendant you are
considering executed or attempted to execute the
scheme knowingly and willfully and with the intent to
obtain money or property owned by or under the custody or control of Deutsche Bank.” J.A. 1316.
The Defendants argue that the district court
should have instructed the jury that a bank fraud conviction requires a finding that the defendant “contemplated harm or injury to the victim.” Br. Def.-Appellant
Calderon at 58. In advancing this argument, the Defendants rely on Second Circuit precedent stating that
“[t]he failure to instruct on an essential element of
the offense generally constitutes plain error.” United
States v. Javino, 960 F.2d 1137, 1141 (2d Cir. 1992). In
response, the Government asserts that, even assuming
Second Circuit precedent requires the instruction the
Defendants’ belatedly argue should have been provided, the Supreme Court’s decision in Loughrin v.
United States has adopted a more limited construction
of the elements of bank fraud. See 573 U.S. 351, 356
(2014) (holding that the Government need not prove
that a defendant charged with § 1344(2) intended to
defraud a bank); see also United States v. Bouchard,
828 F.3d 116, 124 (2d Cir. 2016). The parties dispute
whether Loughrin affects the Second Circuit’s preexisting interpretation of the bank fraud statute, see

App. 37
United States v. Nkansah, 699 F.3d 743, 748 (2d Cir.
2012) (holding that “intent to victimize a bank” is an
element of bank fraud), and whether the Defendants’
proposed instruction was required under either interpretation.
We need not wade into this debate. Even assuming
arguendo that the district court erred in not including
the Defendants’ proposed instruction, the failure to include that instruction did not constitute plain error under the standard articulated above. Most obviously, the
absence of the proposed instruction did not affect the
Defendants’ “substantial rights,” Fed. R. Crim. P. 52(b),
because the jury acquitted the Defendants on the substantive bank fraud charge, convicting them only of
several substantive wire fraud charges and conspiracy
to commit wire fraud and bank fraud. Because we have
already concluded that there was sufficient evidence to
sustain the Defendants’ convictions for wire fraud, see
supra Part I, their convictions for conspiracy could
have rested on those grounds alone. The bank fraud instructions therefore did not prejudice the Defendants.
See Ferguson, 676 F.3d at 277. Moreover, given the district court’s detailed instructions on the elements of
bank fraud that tracked the language of the bank
fraud statute, as well as the ambiguities regarding the
elements of bank fraud in the caselaw described above,
any error in the jury instructions was certainly not
“clear or obvious.” Marcus, 560 U.S. at 262. Finally, the
Defendants have not explained how any alleged error
in the jury instructions could have “seriously affect[ed]
the fairness, integrity or public reputation of judicial

App. 38
proceedings.” Id. Accordingly, we reject the Defendants’
argument that the district court plainly erred in instructing the jury on the elements of bank fraud.
III.
The Defendants next argue that their convictions
should be vacated because the district court issued an
improper jury charge encouraging the jury to continue
deliberating after reaching an apparent deadlock. A
defining characteristic of a so-called Allen charge is
that “it asks jurors to reexamine their own views and
the views of others.” Spears v. Greiner, 459 F.3d 200,
204 n.3 (2d Cir. 2006). This Court reviews a district
court’s decision to give an Allen charge for abuse of discretion. United States v. Vargas-Cordon, 733 F.3d 366,
377 (2d Cir. 2013).
During their deliberations, the jurors sent out two
notes to the court indicating that they were struggling
to reach a unanimous verdict on some of the counts
charged in the indictment. After almost a full week, the
jury announced via a third note to the court that it had
“concluded [its] deliberations.” J.A. 1352. After consulting with the jury foreman, the district court determined that the jury was still deadlocked on some
counts and decided to give a modified Allen charge. The
district court instructed the jury, inter alia, that:
It is desirable for you to keep deliberating and
to reach a verdict if you can conscientiously do
so. However, under no circumstances should
any juror abandon his or her conscientious

App. 39
judgment. It is understandable and quite
common for jurors to disagree. . . .
[T]here appears to be no reason to believe if
the charge were to be submitted to another
jury, that jury would be more intelligent, more
impartial or more competent to decide it than
you are. However, I stress to you, that your
verdict must reflect the conscientious judgment of each juror. Under no circumstances
should any jur[or] yield his or her conscientious judgment. Do not ever change your mind
because the other jurors see things differently
or just to get the case over with.
J.A. 1358.
“An Allen charge is unconstitutional if it is coercive in the context and circumstances under which it
is given.” United States v. Haynes, 729 F.3d 178, 192
(2d Cir. 2013). Considering the “different factors” we
have enumerated to determine an Allen charge’s “coercive effect,” Vargas-Cordon, 733 F.3d at 377, we are
confident that the district court’s carefully crafted
Allen charge did not constitute reversible error. At the
start, we recognize a distinction between “the original
Allen charge,” which conveys “the suggestion that jurors in the minority should reconsider their position,”
and the modern trend toward “’modified’ Allen charges
that do not contrast the majority and minority positions.” Spears, 459 F.3d at 204 n.4. Neither the Government nor the Defendants contest that the district court
gave a “modified” Allen charge, rather than the traditional Allen charge, in this case. A “modified” Allen

App. 40
charge is already a less explosive version of the “dynamite” Allen charge, and therefore carries with it a
lesser threat of coercing jurors to abandon their conscientious beliefs. Id.
Moreover, the district court’s Allen charge contained all of the safeguards, and none of the pitfalls,
that we have previously recognized as relevant to an
assessment of its propriety. For instance, “we generally
expect that a trial judge using an Allen-type supplemental charge will . . . both urge jurors to try to convince each other and remind jurors to adhere to
their conscientiously held views.” United States v.
McDonald, 759 F.3d 220, 225 (2d Cir. 2014). The district court did just that: “repeatedly warn[ing] the jurors not to surrender their conscientiously held beliefs,
which is an instruction we have previously held to
mitigate greatly a charge’s potential coercive effect.”
Vargas-Cordon, 733 F.3d at 378. Moreover, the district
court did not inform the jury that it was required to
reach an agreement; it did just the opposite. See J.A.
1358 (“[I]t is your right to fail to agree.”). It thereby
avoided the “incorrect and coercive” impression that
“the only just result was a verdict.” Haynes, 729 F.3d
at 194; see also id. at 192–94 (holding that an Allen
charge was impermissibly coercive where the court
stated that it “believe[d]” that the jury would “arrive at
a just verdict on Monday”) (internal quotation marks
omitted).
The Defendants claim that the district court’s
Allen charge was improper because it failed to reinstruct the jury on the burden of proof. We note first that

App. 41
while the court did not mention the burden of proof
specifically in its Allen charge, it did remind the jury
to “follow all the instructions” it had “[previously]
given,” referencing the written jury instructions that
the jury had on hand, which themselves recited the
burden of proof. J.A. 1358. Moreover, this factor, on its
own, is not dispositive proof of coercion. See VargasCordon, 733 F.3d at 377. The district court’s Allen
charge encouraged the members of the jury to continue
deliberating on the deadlocked counts to see if a verdict could be reached without coercing them into abandoning their consciously held beliefs regarding the
Defendants’ guilt or innocence. As such, it resembles
other Allen charges we have previously approved and
its issuance was not an abuse of discretion.
IV.
Finally, the Defendants argue the district court
acted improperly in ordering Lillemoe and Calderon
to pay $18,807,096.33 in restitution with respect to
five GSM-102 loans on which the Russian Bank, IIB,
defaulted. This sum included $18,501,353 to be paid
to the USDA, which had reimbursed CoBank and
Deutsche Bank for 98% of their losses on these transactions, see 18 U.S.C. § 3664(j)(1) (“If a victim has received compensation from insurance or any other
source with respect to a loss, the court shall order that
restitution be paid to the person who provided or is
obligated to provide the compensation.”), and
$304,743.33 to be paid to CoBank, which included
$137,422 for losses associated with the transactions

App. 42
and $168,321.33 for costs and attorneys’ fees incurred
in connection with the investigation and prosecution of
the case, see id. § 3663A(b)(4) (authorizing reimbursement of “the victim for . . . expenses incurred during
participation in the investigation or prosecution of the
offense or attendance at proceedings related to the
offense”).8 We review a district court’s order of restitution for abuse of discretion. United States v. Pearson,
570 F.3d 480, 486 (2d Cir. 2009). “A court abuses its discretion when it rests its decision on an error of law.”
United States v. Archer, 671 F.3d 149, 169 (2d Cir.
2011).
“The Mandatory Victims Restitution Act (‘MVRA’),
18 U.S.C. § 3663A, is one of several federal statutes empowering courts to impose restitution obligations on
criminal defendants.” United States v. Thompson, 792
F.3d 273, 277 (2d Cir. 2015). Under the MVRA, in the
case of an “offense resulting in . . . loss or destruction
of property,” the court shall “order restitution to each
victim in the full amount of each victim’s losses as
determined by the court and without consideration of
the economic circumstances of the defendant.” See 18
U.S.C. §§ 3663A(b)(1), 3664(f )(1)(A). Where intended
loss is incorporated to punish a culpable defendant,
“restitution is designed to make the victim whole . . .
and must therefore be based only on the actual loss
caused by the scheme.” United States v. Lacey, 699 F.3d
710, 721 (2d Cir. 2012) (citation omitted).
8

The Court also ordered forfeiture in the amount of
$1,543,287.60 from Lillemoe and $63,509.97 from Calderon. The
Defendants do not challenge the forfeiture amount.

App. 43
The Defendants argue that the district court’s order was improper because CoBank and Deutsche Bank
do not qualify as “victims” under the Act.9 A “victim”
for the purposes of the MVRA is “a person directly and
proximately harmed as a result of the commission of
an offense for which restitution may be ordered.” 18
U.S.C. § 3663A(a)(2) (emphasis added). To qualify as a
“victim,” then, a party must have endured a financial
loss that was “directly and proximately” caused by a
defendant’s fraud. See United States v. Paul, 634 F.3d
668, 676 (2d Cir. 2011) (“In determining the proper
amount of restitution, a court must keep in mind that
the loss must be the result of the fraud.” (internal quotation marks, brackets, and citation omitted)).
“[P]roximate cause, as distinct from actual cause
or cause in fact” (commonly labeled “but-for” causation)
is a “flexible concept” that “defies easy summary.” Paroline v. United States, 572 U.S. 434, 444, (2014) (internal quotation marks and citation omitted); see also
CSX Transp., Inc. v. McBride, 564 U.S. 685, 701 (2011)
(labeling proximate cause “a term notoriously confusing”). “Proximate cause” is in essence a “shorthand for
a concept: Injuries have countless causes, and not all
should give rise to legal liability.” CSX Transp., 564
U.S. at 692. The central goal of a proximate cause requirement is to limit the defendant’s liability to the
kinds of harms he risked by his conduct, the idea being
that if a resulting harm was too far outside the risks
9

The Government bears the burden of establishing by a preponderance of the evidence that each individual it claims is entitled to restitution was actually a “victim.” Archer, 671 F.3d at 173.

App. 44
his conduct created, it would be unjust or impractical
to impose liability. See Prosser & Keeton, The Law of
Torts 281 (5th ed. 1984).
We have accordingly viewed the MVRA’s proximate cause requirement as a “tool[ ]” to both “limit a
person’s responsibility for the consequences of that
person’s own acts” and to promote efficiency in the sentencing process. United States v. Reifler, 446 F.3d 65,
135 (2d Cir. 2006).10 When interpreting the MVRA, we
have clarified that “a misstatement or omission” is the
“proximate cause” of an investment loss for the purposes of imposing restitution, “if the risk that caused
the loss was within the zone of risk concealed by the
misrepresentations and omissions alleged by a disappointed investor.” United States v. Marino, 654 F.3d
310, 321 (2d Cir. 2011) (internal quotation marks and
citation omitted). The MVRA’s proximate causation requirement is therefore “akin to the well-established
requirement that there be ‘loss causation’ in securitiesfraud cases and not merely transaction (‘but-for’) causation.” Archer, 671 F.3d at 171 n.16; see also Marino,
654 F.3d at 321 (equating “proximate causation” under
the MVRA to “loss causation” in the securities context).
And to establish loss causation, “a plaintiff must allege
that the subject of the fraudulent statement or omission was the cause of the actual loss suffered.” Lentell
v. Merrill Lynch & Co., 396 F.3d 161, 173 (2d Cir. 2005)
10

The Supreme Court has indicated that the definition of
“proximate cause” may vary depending on the statute in question.
See CSX Transp., 564 U.S. at 700 (recognizing a unique test for
“proximate causation applicable in FELA suits”).

App. 45
(internal quotation marks, ellipses, and citation omitted).11
Given the above standard, we are confident that
the banks do not qualify as “victims” under the MVRA
because the Defendants did not proximately cause
their losses. As catalogued above, the Defendants
fraudulently altered shipping documents in order to
make them facially compliant with the relevant letters
of credit. Their fraud concealed two risks from the domestic banks: (1) that the issuing (foreign) banks
would refuse to honor the letters of credit on the
ground that the domestic banks had failed to demand
a valid, conforming presentation; and (2) that the
USDA would decline to reimburse the banks for their
losses because the transactions were not compliant
with the GSM-102 program requirements. See supra
Part I.B. Neither of these risks even arguably materialized. Instead, the foreign banks defaulted on their
obligations due to their financial inability to fulfill
them following a global financial crisis. The fraudulent
shipping documents had no bearing whatsoever on the
foreign banks’ potential to default in such circumstances, which is the risk that actually materialized
here.

11

To take one example from the securities context, in Citibank, N.A. v. K-H Corp., 968 F.2d 1489 (2d Cir. 1992), we dismissed a civil claim asserting violations of securities laws where
the complaint alleged that a fraud “induced” the plaintiff to enter
into a transaction but failed to allege facts supporting a “causal
connection between the fraud alleged and the subsequent loss
that it suffered.” Id. at 1492, 1495.

App. 46
This case is thus distinct from those contexts
where we have found that a defendant’s fraud “proximately caused” an injury for purposes of the MVRA. To
take one example, in Paul, the defendant artificially inflated the value of his stock holdings in order to secure
a loan. 634 F.3d at 670. Once his scheme was discovered, the price of those holdings plummeted, and he
was unable to repay his loans. Id. We concluded that
the defendant’s fraud “proximately caused” his lenders’
losses (and that they were therefore “victims” under
the MVRA entitled to restitution equaling the full
amount of the loan) because his misrepresentations
bore directly on “the making of the loans in the first
instance,” even if “market forces may have contributed
to the decline in” the value of the collateral. Id. at 677–
78. Put differently, because Paul misrepresented his
own creditworthiness, his financial inability to repay
his loans was quite clearly within the zone of risk concealed by his fraud.12
Here, by contrast, the Defendants’ misrepresentations were not even arguably related to CoBank’s and
Deutsche Bank’s assessment of the foreign banks’
12

Thus, if the Defendants here had, say, misrepresented the
value of collateral held by the foreign banks and those banks had
then defaulted on their loans, we would not hesitate to conclude
that they “proximately caused” the banks’ losses, even if the
banks’ ability to repay the loans was also affected by market
forces. Cf. United States v. Turk, 626 F.3d 743, 748–51 (2d Cir.
2010) (affirming the district court’s loss calculation as to the total
value of a loan where the defendant lied to lenders as to whether
they were secured creditors and never repaid them their principal).

App. 47
creditworthiness. We can say this with complete certainty because before the Defendants presented the
fraudulent documents to the confirming banks, the
USDA and the banks had pre-approved the relevant
foreign banks for participation in these transactions.
This pre-approval process included the foreign banks’
submission of three years of audited financial statements, and a “rigorous” independent analysis spearheaded by the USDA’s Risk and Asset Management
branch that could take “six or seven months” to complete. J.A. 595; see also S.A. 11 (the district court noting
that the bank made its determination as to the foreign
banks’ likelihood of default “before any of the altered
documents were presented”).
The Government argues that the banks would not
have gone through with the transactions without the
Defendants’ involvement, and therefore that the Defendants proximately caused the banks’ losses on those
transactions. This argument confuses “but-for” causation with proximate causation. To take one analogous
example from the securities context, in Bennett v.
United States Trust Co., 770 F.2d 308 (2d Cir. 1985), the
plaintiffs “went to [a bank] with the idea of borrowing
money to purchase public utility stock already in
mind” when that bank misinformed them that the Federal Reserve’s “margin rules” did not apply to their intended stock purchases. Id. at 313-14. The bank’s error
allowed the plaintiffs to borrow money to purchase the
stock, but when the market value of the stock subsequently decreased, the plaintiffs were unable to repay
their loans. Id. at 310. We held that even if the bank’s

App. 48
misrepresentation regarding the margin requirements
was a “but-for” cause of the plaintiffs’ investment, the
plaintiffs had still failed to plead loss causation because “the loss at issue was caused by the [plaintiffs’]
own unwise investment decisions, not by [the bank’s]
misrepresentation.” Id. at 314. Similarly, here, the Defendants presented fraudulent documents to the confirming banks after those Banks had already decided
to offer loans to the relevant foreign banks pursuant to
comprehensive financial analyses conducted by the
confirming banks and the USDA. That financial decision—to offer the foreign loans—was not influenced by
the Defendants’ misconduct.
The MVRA provides redress to the victims of
fraud, but it does not supply a windfall for those who
independently enter into risky financial enterprises
through no fault of the fraudsters. As we stated in
Archer: “[I]f a person gives the defendant his money to
bet, knowing that the bet might lose, his later loss, for
purposes of restitution, is, in this fundamental sense,
caused not by the defendant accepting his money but
by the outcome of the bet.” 671 F.3d at 171. The domestic banks here made a bet that the foreign banks would
be able to repay the relevant loans with interest, and
their assessments as to the advisability of that bet
were completely unrelated to the risks concealed by
the Defendants’ fraud. The banks therefore do not
qualify as “victims” under the MVRA and the district
court erred in finding to the contrary. Accordingly,
neither the USDA nor the banks are entitled to any
restitution for losses caused by participation in the

App. 49
transaction or for expenses incurred during participation in the investigation, prosecution, or related proceedings. The entire restitution award must be
reversed.
CONCLUSION
We have considered the parties’ remaining arguments and find them to be without merit. For the
foregoing reasons, we AFFIRM the district court’s
judgments of conviction but REVERSE the restitution
orders. We REMAND the case with instructions that
the judgments be amended to omit that portion stating
that the defendant must pay restitution.

App. 50
UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
UNITED STATES OF AMERICA : CRIMINAL NO.
: 15-CR-25 (JCH)
v.
:
BRETT LILLEMOE AND
:
PABLO CALDERON,
:
MARCH 16, 2017
:
Defendants.
RULING RE: LILLEMOE’S MOTION FOR
A JUDGMENT OF ACQUITTAL, OR IN THE
ALTERNATIVE, A NEW TRIAL (DOC. NO. 336)
AND CALDERON’S MOTION FOR
A JUDGMENT OF ACQUITTAL OR FOR
A NEW TRIAL (DOC. NO. 337)
(Filed Mar. 16, 2017)
I.

INTRODUCTION

On November 9, 2016, defendant Brett Lillemoe
was convicted of one count of conspiracy and five
counts of wire fraud, and defendant Pablo Calderon
was convicted of one count of conspiracy and one count
of wire fraud.1 Lillemoe and Calderon each timely filed
a Motion for a Judgment of Acquittal, pursuant to Rule
29 of the Federal Rules of Criminal Procedure. In the
alternative, Lillemoe and Calderon move for a new
trial pursuant to Rule 33 of the Federal Rules of Criminal Procedure. (Doc. Nos. 336, 337).
1

A third defendant, Sarah Zirbes, was acquitted on all
counts against her. Jury Verdict (Doc. No. 324).

App. 51
For the reasons set forth below, both Motions are
denied.
II.

BACKGROUND

On February 20, 2015, the grand jury returned a
twenty-three count Indictment against Brett Lillemoe,
Pablo Calderon, and Sarah Zirbes. Indictment (Doc.
No. 1). The Indictment charged Lillemoe with one
count of conspiracy to commit wire fraud and bank
fraud, nineteen counts of wire fraud, one count of bank
fraud, and one count of money laundering. Id. at ¶¶ 156. The Indictment charged Calderon with one count
of conspiracy to commit wire fraud and bank fraud,
nineteen counts of wire fraud, one count of bank fraud,
one count of money laundering, and one count of false
statement. Id. at ¶¶ 1-56. Almost all of the counts in
the Indictment revolved around the defendants’ involvement with the Export Credit Guarantee program
(“GSM-102”), a program run by the United States Department of Agriculture (“USDA”). The only exception
was Count Twenty-Three, which alleged that Calderon
made a false statement in connection with the Federal
Bureau of Investigation’s investigation into the defendants’ scheme. Id. at ¶¶ 55-56.
In order to accurately describe the scheme at issue
in the trial, it is first necessary to describe a typical
GSM-102 transaction. The GSM-102 program is a
federal program designed to encourage agricultural exports to developing countries. See 7 C.F.R. § 1493.10(a)
(2014) (describing the program’s purpose “to expand

App. 52
U.S. agricultural exports by making available export
credit guarantees to encourage U.S. private sector financing of foreign purchases of U.S. agricultural commodities on credit terms.”).2 In a standard GSM-102
transaction, a U.S. exporter would enter into an agreement with a foreign importer of U.S. agricultural goods
to import goods to an approved developing nation. 7
C.F.R. § 1493.10(d). The foreign importer would then
approach an approved foreign bank for a letter of credit
naming the U.S. exporter as the beneficiary. See 7
C.F.R. § 1493.20(k) (noting that the letter of credit
must be issued by a “CCC-approved foreign banking
institution”). The letter of credit would be payable on
presentation of certain shipping documents named in
the letter of credit, such as a bill of lading, to the bank.
See UCP 600, Ex. 2603, Art. 15.3 The foreign bank
would then approach a U.S. bank, asking the U.S. bank
to “confirm” the letter of credit, whereby the U.S. bank
would commit to pay the beneficiary on behalf of the
foreign bank that issued the letter of credit in exchange for a promise by the foreign bank to pay back
the U.S. bank with interest. See id. at Art. 8. If the U.S.
2

Although the GSM-102 regulations were revised on December 18, 2014, all of the charged conduct occurred between 2007
and 2012. Therefore the relevant regulations are those regulations that were in effect before the 2014 version. See Indictment
at ¶ 50.
3
The UCP 600 is the product of the International Chamber
of Commerce’s Commission on Banking Technique and Practice,
and is often incorporated by reference into letters of credit. See
UCP 600 at Forward. It is the governing set of rules for almost all
commercial letter of credit in the world. Trial Tr. at 2773:242774:10.

App. 53
bank confirms the letter of credit, the U.S. bank must
pay the beneficiary of the letter of credit when the conditions of payment, as set out in the letter of credit, are
satisfied. Id. The GSM-102 program facilitates these
transactions by guaranteeing a portion, most commonly 98%, of the money promised in the letter of
credit in the event that a foreign bank defaults on its
obligation to repay the debt. See Trial Tr. at 788:9-15.
The program is administered by the Commodity
Credit Corporation (“CCC”), an agency within the
USDA. 7 C.F.R. § 1493.10 (a) (2014). An exporter who
wishes to take advantage of the GSM-102 program
must first have a firm export sale in place, and then
may submit an application to the CCC for a guarantee
on the transaction. 7 C.F.R. § 1493.40 (2014). The guarantee will cover the exporter or their assignee in the
event that the foreign importer or foreign bank defaults on its obligation under the letter of credit. 7
C.F.R. § 1493.10(a) (2014). That way, if the foreign
bank refuses to pay or defaults on the letter of credit,
the U.S. exporter will be left with only a small fraction
of a loss, thereby encouraging foreign exports to developing nations by reducing the risk of nonpayment.
The GSM-102 program has also been utilized to
finance a different type of transaction, which was referred to during trial as a third party GSM-102 transaction. In a third party transaction, a non-exporting
third party will buy the rights to a bill of lading for
a GSM-102 eligible shipment, so long as the actual
exporter did not apply for a GSM-102 guarantee on
the same shipment. The third party will then use the

App. 54
shipping information provided by the physical exporter to apply for a GSM-102 guarantee. Next, the
third party will execute a transaction with a foreign
entity based in the country that the commodity was actually shipped to, essentially mirroring the sale of the
physical goods. This foreign entity is often a subsidiary
or a related entity to the third party’s domestic entity.
The foreign buyer then applies for an irrevocable letter
of credit from a foreign bank naming the domestic entity as the beneficiary to finance the sale. Finally, the
foreign entity sells the rights to the goods back to the
original, actual exporter for an amount less than
they were bought for. Through this sale, the third party
effectively pays a fee for “renting” the trade flow from
the actual exporter.
Meanwhile, the letter of credit is then forwarded
to a U.S. bank, which will confirm the letter of credit,
and pay the third party on presentation of the various
documents named in the letter of credit. The third
party will then forward those funds to the foreign bank
who originally issued the letter of credit. The effect of
this convoluted transaction is to create a loan from the
U.S. bank to the foreign bank that is guaranteed by the
CCC through the GSM-102 program. The legality of
the third party transaction was not at issue during the
trial. See Jury Charge (Doc. No. 323) at 47 (“Participating in the GSM-102 Program as a financial intermediary is not, in itself, illegal.”).
Instead, the Indictment alleged that Lillemoe and
Calderon, who positioned themselves as third parties
in GSM-102 transactions, conspired to commit bank

App. 55
fraud and wire fraud by materially altering shipping
documents. Indictment at ¶¶ 27-28. Specifically, the
Indictment alleged that Lillemoe and Calderon created
multiple entities to maximize their share of the limited
numbers of GSM-102 guarantees, which were split pro
rata among applicants, id. at ¶ 29-33; Trial Tr. at
799:17-800:21, and altered bills of lading marked “copy
non negotiable” by whiting out that marking and
stamping the word “original” in its place, id. at ¶ 40.
The Indictment also alleges that Lillemoe and Calderon altered documents by adding shading to portions
of documents to make the alterations less apparent. Id.
at ¶ 41.
The scheme that the government described at trial
involved the defendants using altered bills of lading
to secure loans from U.S. banks to foreign banks, and
charging the foreign banks a fee for the service. Specifically, the government offered evidence that the defendants had purchased the rights to copies of bills of
lading marked “Copy – Non-Negotiable,” whited-out
those markings, and then applied their own stamp to
mark the bills of lading “Original.” They then presented these altered documents to two U.S. banks,
Deutsche Bank and CoBank, causing the banks to disburse funds according to the terms of the letters of
credit. The government also put forth evidence that the
defendants changed dates of bills of lading in order to
ensure that they could utilize as much of the GSM-102
guarantees as possible.
The evidence presented by the government at trial
consisted, inter alia, of (1) the GSM-102 program files

App. 56
that contained the documents that were submitted to
the U.S. banks; (2) the unaltered bills of lading that
were provided to Lillemoe and Calderon; (3) testimony
from a CoBank employee, Holly Womack (“Womack”);
(4) testimony from a Deutsche Bank employee, Rudy
Effing (“Effing”); (5) testimony from a USDA employee,
Jon Doster (“Doster”); (6) testimony from FBI Special
Agent Steven West; and, on rebuttal, (7) testimony of
an expert on letters of credit, James Byrne (“Byrne”).
The defense case consisted of, inter alia, three experts:
(1) testimony of an expert on bills of lading, Professor
Michael Sturley; (2) testimony of an expert on letters
of credit, Vincent O’Brien (“O’Brien”); and, (3) testimony of an expert on the GSM-102 program, Professor
Steven Lindo (“Lindo”). The defendants also introduced various character witnesses, and defendant
Brett Lillemoe testified in his own defense.
On November 3, 2016, the case was submitted to
the jury. On November 9, 2016, the jury returned a verdict of guilty for Lillemoe on Counts One of conspiracy
and Counts Two through Six of wire fraud and returned a verdict of guilty for Calderon on Count One
of conspiracy and Count Six of wire fraud. See Verdict
(Doc. No. 324).4 A co-defendant, Sarah Zirbes (“Zirbes”),
who had been charged with them in Counts One and
Seven through Twenty Two, was acquitted of all
charges. Id.
All of the counts of wire fraud for which the defendants were convicted involved a transaction with
4

They were both acquitted of all other counts. See Verdict.

App. 57
CoBank. Indictment at 23. The letter of credit in the
transaction was issued by a bank in Russia, IIB, and
the goods were shipped on a vessel called Cool Express.
See Ex. 250 (GSM-102 file for the transaction). Thus,
at trial, the transaction was referred to as the “Cool
Express transaction.”
III. LEGAL STANDARD
Rule 29 of the Federal Rules of Criminal Procedure requires the court, on motion by a defendant, to
“enter a judgment of acquittal for any offense for which
the evidence is insufficient to sustain a conviction.”
Fed. R. Crim. P. 29(a). The defendant who challenges
the sufficiency of his conviction “faces an uphill battle,
and bears a very heavy burden.” United States v. Mi
Sun Cho, 713 F.3d 716, 720 (2d Cir. 2013) (citation and
internal quotation marks omitted). This is because the
court in deciding a motion for a judgment of acquittal
must view the evidence in the light most favorable to
the government, draw all inferences in favor of the government, and must defer to the jury’s assessment of
witness credibility. United States v. Hawkins, 547 F.3d
66, 70 (2d Cir. 2008). The question for the court is
whether “any rational trier of fact could have found the
essential elements of the crime beyond a reasonable
doubt.” Mi Sun Cho, 713 F.3d at 720 (quoting Jackson
v. Virginia, 443 U.S. 307, 319 (1979)). The court must
view the evidence in its totality. United States v.
Cassese, 428 F.3d 92, 98-99 (2d Cir. 2005). Additionally,
the court must be careful not to substitute its determination of the weight of the evidence, or the inferences

App. 58
to be drawn, or the credibility of the witnesses, for that
of the jury. Id.
Rule 33 of the Federal Rules of Criminal Procedure allows the court, on motion of the defendant, to
vacate any judgment and grant a new trial if it is in
the interest of justice. Granting a motion for a new
trial should be done sparingly, and only if “the trial
court is convinced that the jury has reached a seriously
erroneous result or that the verdict is a miscarriage of
justice.” United States v. Triumph Capital Grp., Inc.,
544 F.3d 149, 159 (2d Cir. 2008) (citation omitted). In
resolving a motion for a new trial under Rule 33, the
court is permitted to reevaluate the evidence, but “generally must defer to the jury’s resolution of conflicting
evidence.” United States v. Ferguson, 246 F.3d 129,
133-34 (2d Cir. 2001).
IV. DISCUSSION
The moving defendants advance five separate arguments in their briefs. See Mem. of Law in Supp. of
Def. Brett Lillemoe’s Mot. for J. of Acquittal, or in the
Alternative, a New Trial (Doc. No. 336-1) (“Lillemoe
Mem.”); Memo. of Law in Supp. of Def. Pablo Calderon’s
Mot. for J. of Acquittal or for a New Trial (Doc. No. 338)
(“Calderon Mem.”) These defendants make three separate arguments that the evidence was insufficient to
support the convictions of wire fraud. See Lillemoe
Mem. at 3-4; Calderon Mem. at 1. These defendants
also argue that the evidence was insufficient to convict
the defendants of conspiracy. Id. They ask the court to

App. 59
enter a judgment of acquittal or, in the alternative, a
new trial. Id. Lillemoe also requests that the court
grant a new trial because the court did not admit into
evidence the GSM-102 regulations that went into effect in December 2014, more than 2 years after the
time period alleged in the Indictment. See Indictment
at 6 (alleging that the timeframe of the conspiracy was
from about September 2007 to about January 2012).
For the reasons that follow, the court is unpersuaded by the moving defendant’s arguments. Indeed,
the evidence was more than sufficient to permit a rational trier of fact to determine that the moving defendants committed wire fraud and conspiracy, and the
court properly exercised its discretion under Rule 403
of the Federal Rules of Evidence to exclude the evidence of subsequent revisions to the governing regulations.
A. The Sufficiency of the Evidence that the Defendants Committed Wire Fraud
To convict Lillemoe and Calderon of the crime of
wire fraud, as charged in Counts Two through Six, the
jury had to find that the government had proven the
following elements beyond a reasonable doubt:
1.

That there was a scheme or artifice to defraud
Deutsche Bank or CoBank, or to try to obtain
money or property from Deutsche Bank or
CoBank, by materially false or fraudulent
pretenses, representations, or promises;

App. 60
2.

That each defendant knowingly and willfully
participated in that scheme or artifice to defraud with knowledge of its fraudulent nature
and with specific intent to defraud; and

3.

In execution of that scheme, each defendant
used or caused the use of the interstate wires
as specified in that particular Count.

Jury Charge at 56; see 18 U.S.C. § 1343; 2 Leonard B.
Sand et al., Modern Federal Jury Instructions: Criminal, Instruction 44-3. In the Jury Charge, the court
clarified that a scheme to defraud “is a plan to deprive
another of money or property by trick, deceit, deception, or swindle.” Jury Charge at 58. It charged that the
government had to prove that the defendants contemplated depriving Deutsche Bank or CoBank of money
or property, including by “depriving Deutsche Bank or
CoBank of information necessary to make discretionary economic decisions,” so long as that information
was material. Id. at 61. The Jury Charge also instructed that a material misrepresentation is one that
“a reasonable person might have considered important
in making the decision to which it is addressed. To be
material, the information withheld either must be of
some independent value or must bear on the ultimate
value of the transaction.” Id. at 59.
Both defendants contest the sufficiency of the evidence of the first element, offering three arguments
in support of their position. First, Lillemoe argues
that there was insufficient evidence that the banks
were deprived of information necessary to make a “discretionary economic decision” by the alterations made

App. 61
by defendants. Lillemoe Mem. at 6-11. Lillemoe and
Calderon both dispute that the evidence could prove
beyond a reasonable doubt that the misrepresentations prevented the banks from getting the benefit of
the bargain, and as such could not constitute a “scheme
to defraud,” as required by the first element. Id. at 1114; Calderon Mem. at 11-18. Finally, the defendants
both argue that the misrepresentations were not material to the banks. Lillemoe Mem. at 14-17; Calderon
Mem. at 18-30.
1. There was Sufficient Evidence to show
that the Banks were Deprived of Information Necessary to Make an Economic
Decision
Lillemoe argues that there was insufficient evidence that the misrepresentations made by Calderon
and him deprived CoBank of information necessary for
the bank to make a discretionary economic decision in
the Cool Express transaction. Lillemoe Mem. at 7. He
argues that CoBank only had discretion at the stage of
the transaction where it was deciding to confirm the
letter of credit from the foreign bank, in this case IIB
in Russia. Id. at 8. According to Lillemoe, at the time
that Lillemoe presented the altered documents to the
bank, the bank had no discretion at all to reject the
documents as fraudulent, so long as they facially complied with the requirements set forth in the letter of
credit. Id. at 9. This theory was rejected by the jury, and
the court sees no reason to disturb their judgment.

App. 62
Lillemoe is correct that CoBank had the discretion
to confirm or reject the letter of credit when it was sent
from IIB. See Trial Tr. at 2792:7-13 (O’Brien, the defendants’ expert on letters of credit, testifying that
the banks would look at the terms and conditions of
the letter of credit before deciding whether or not to
confirm the letter of credit). At that point, the bank
decided whether or not it was willing to accept the risk
of the foreign bank defaulting. Id. at 2794:22-2795:16.
Lillemoe is also correct that the bank made this determination before any of the altered documents were
presented to the bank, and therefore the alterations
could not have affected the bank’s decision to confirm
or not confirm the letter of credit. Id. Further, under
the UCP 600, a bank that has confirmed a letter of
credit must honour—pay the funds as described in the
letter of credit—upon presentation of complying documents. See UCP 600, Art. 15b (“When a confirming
bank determines that a presentation is complying, it
must honour[.]”). The determination of whether or not
a presentation is complying is to be made “on the basis
of the documents alone.” Id. at Art. 14. Lillemoe argues
from this that the bank had no discretion to reject his
facially complying presentation, and so the alterations
he made could not have withheld information necessary for the bank to make a discretionary economic decision. Lillemoe Mem. at 10.
Lillemoe’s argument hinges on various decisions
which reiterate that, in a wire fraud case, the information withheld or reported inaccurately must be “economically material.” See id. (citing United States v.

App. 63
Viloski, 557 Fed. App’x 28, 34 (2d Cir. 2014) cert. denied, 135 S. Ct. 1698 (2015)). The information at the
heart of the fraud claim must be the type of information that could influence the victim’s choice of how
to spend and invest his or her assets. United States v.
Rossomando, 144 F.3d 197, 201 n.5 (2d Cir. 1998). Indeed, he is correct that the information must be salient
to the victim’s discretionary economic decision or “bear
on the ultimate value of the transaction.” Id.
However, Lillemoe’s conclusion that the information withheld in this case was not relevant to a discretionary economic decision is wrong for two reasons.
First, although the alterations could not have affected
the bank’s decision to confirm the letter of credit, they
could have affected the bank’s determination of
whether or not the presentation was complying. For
example, the letter of credit in the Cool Express transaction at issue in Counts Two through Six required the
beneficiary to present a copy of the original on board
ocean bill of lading. Ex. 250 at ¶ 46A. If Lillemoe had
presented CoBank with a document that stated affirmatively that it was not a copy of an original, the bank
clearly would have been within its rights to reject the
presentation as non-complying. See Trial Tr. at
2857:16-2859:3 (explaining that, if a bill of lading is
presented on note paper and written in crayon, the
bank would reject it). It follows logically that, if the
bank had determined that the document it is presented with is a fraudulent bill of lading, it could reject
that presentation as not complying. See Trial Tr. at
2965:18-2966:23 (O’Brien testifying that a bank that

App. 64
was aware that a document presentation contained
fraud could choose not to release the funds). Lillemoe’s
argument is that, if the bank is presented with a document altered carefully enough that the bank cannot or
does not detect the alteration, it has no discretion in
that transaction under the UCP. He reasons that a
person who doctors documents and presents them to a
bank has committed no fraud if the bank has a contractual obligation to accept documents that appear to
be genuine. This argument would apply equally to any
fraudulent alteration of a document, from the date of
shipment to the name of the beneficiary, because regardless of the information misrepresented, the bank
would have to accept the document. Were the court to
accept this argument, it would, in effect, be condoning
the unauthorized alteration of international trade documents, so long as the alterations were made with sufficient care that they were not immediately detectable.
The court rejects this result.
Even were the court persuaded that Lillemoe’s
theory was correct, it would not be the court’s place to
reject the determination by the jury, after being
properly charged,5 that the representations were material to the transaction, specifically the release of
funds by the U.S. bank to the beneficiary. See Jury
Charge at 60 (“Here, the alleged scheme is to defraud
Deutsche Bank or CoBank, and thus the relevant “decision” is Deutsche Bank’s or CoBank’s decision to release funds.”). There was sufficient evidence before
5

Lillemoe requested this jury instruction. Proposed Jury
Instruction (Doc. No. 273); see, also, Trial Tr. 3491:24-3492:12.

App. 65
the jury for it to reject the defendants’ theory that the
banks had no discretion at the time of presentation.
For example, the jury heard from Womack that, if
CoBank had not been presented with a copy of an original on board bill of lading, it would not have released
the funds. Trial Tr. at 500:20-501:8. She further testified that CoBank was concerned with the bills of lading
specifically because they were necessary to get repaid
by the foreign bank or, if the foreign bank failed to pay,
under the GSM-120 program. Trial Tr. at 504:20-505:5.
Womack also testified that, if CoBank had learned
that the documents with which it was being presented
were fraudulent, it would have declined to release the
funds. See, e.g., Trial Tr. at 500:25-501:8, 504:13-505:5,
509:3-15, 530:5-25, 542:4-543:2. The representative
of Deutsche Bank, Rudy Effing, corroborated that
Deutsche Bank too would have declined to release
the funds if it had received documents that were not
complying or were altered. See, e.g., Trial Tr. at 182:22183:24, 215:20-216:10. Finally, as noted above, O’Brien
also testified that a bank would be free to reject a
presentation made with clearly fraudulent documents.
Trial Tr. at 2857:16-2859:3, 2965:18-2966:23. The testimony of the banks’ employees, as well as the defendants’ own expert, was sufficient evidence for the jury
to find beyond a reasonable doubt that there was an
economic decision to be made at the time the defendants presented the banks with the altered documents,
namely whether or not the documents with which
they were presented were complying and to therefore
release the funds.

App. 66
2. There was Sufficient Evidence to show
that the Banks were Harmed by the Defendants’ Deception
Second, both Lillemoe and Calderon argue that
there was not sufficient evidence to show that the
banks had been exposed to loss, and therefore there
was no scheme to defraud. See Jury Charge at 61
(“[T]he government must prove beyond a reasonable
doubt, that by executing or attempting to execute the
scheme alleged in the Indictment, Mr. Lillemoe [or]
Mr. Calderon . . . placed Deutsche Bank or CoBank
at a risk of loss. . . .”). Both defendants contend that
CoBank received the exact benefit of its bargain in the
Cool Express transaction, and therefore the scheme
did not place CoBank at a risk of loss. See Lillemoe
Mem. at 11-12; Calderon Mem. at 13. The thrust of
their argument is that CoBank, as the financier of a
third party GSM-102 transaction, intended to provide
a loan to IIB that was guaranteed under the GSM-102
program. Lillemoe Mem. at 12; Calderon Mem. at 13.
CoBank did enter into that loan, and therefore, the
defendants argue, CoBank got the benefit it bargained
for. The government responds that the defendants did
not give the bank the benefit of its bargain, but rather
withheld information essential to the transaction.
Gov.’s Opp. To Defs.’ Mots. For J. of Acquittal, or for a
New Trial (Doc. No. 351) at 29 (“Gov.’s Opp.”).
Lillemoe argues that CoBank bargained for the
benefit of a loan that was 98% guaranteed by the
USDA in the event of default. Lillemoe Mem. at 12. He
argues that the 2% risk that they assumed with regard

App. 67
to this transaction was the same as the 2% they risked
in every GSM-102 transaction, and so the misrepresentation did not affect the underlying value of the
transaction. Id. Lillemoe states that CoBank was not
even exposed to that 2% risk in the Cool Express transaction, because he had paid CoBank a 3% fee, thus covering all of CoBank’s risk. Id. at 13. He also argues that
the GSM-102 regulations contain an indemnity clause,
which states that the “CCC will not hold the assignee
responsible or take any action or raise any defense
against the assignee for any action, omission, or statement by the exporter of which the assignee has no
knowledge,” and therefore the bank, as Lillemoe’s assignee, could not be held liable for Lillemoe’s omission.
Id. at 13; 7 C.F.R. § 1493.120(e) (2014). This argument
bears many similarities to Lillemoe’s first argument:
again, he is arguing that, because his fraud was undetectable at first glance, it is not fraud. It also fundamentally misstates the risk he defrauded the banks
into accepting.
First, Lillemoe’s payment of a 3% fee to the banks
did not remove risk from the underlying transaction,
but instead was part of CoBank’s bargain. The benefit
of the bargain that CoBank anticipated was a return
of 103%—being entirely repaid plus Lillemoe’s fees—
and not 101%—98% of the original guarantee plus
Lillemoe’s fees. See Trial Tr. at 671:5-72:8. Lillemoe’s
fees did not remove any risk that was inherent in
the GSM-102 program. Instead, they reflected that
Lillemoe was paying CoBank for the right to use some
of CoBank assets. Thus, CoBank was still exposed to a

App. 68
risk that it would not get the full benefit of its bargain,
a 103% return on its loan. However, even greater than
the 2% risk of default was the risk that the CCC would
not pay the guarantee if they discovered the doctored
documents, or at the very least that they would litigate
the issue.
It may be true that the GSM-102 regulations provide that an assignee cannot be held liable for misrepresentations made by exporters of which they have no
knowledge. See 7 C.F.R. § 1493.120(e). A necessary
predicate in the indemnity clause is that the assignee,
in this case CoBank, has no knowledge. The question
of whether or not an individual or entity has
“knowledge” of a misrepresentation is, of course, an
issue over which many controversies are brought before courts. Indeed knowledge and intent were central
to this matter. See, e.g., Jury Charge at 63 (discussing
the need for the jury to find that a defendant had
knowledge of the fraud and intent to defraud in order
to be guilty of wire fraud). Thus, even if the ultimate
truth was that CoBank, as the assignee, had no
knowledge that Lillemoe and Calderon had altered
documents, the doctoring of the underlying documents
increased the risk that the CCC would deny guarantee
payments based on CCC’s view that CoBank was
aware of the alterations. This dispute could potentially
lead to protracted and costly litigation over the issue
of whether CoBank had knowledge of the nature of
the documents it had accepted. A GSM-102 guarantee
based on fraudulent documents is economically different than a GSM-102 guarantee based on documents

App. 69
which have not been altered. The difference in risk is
one for which CoBank did not bargain. See United
States v. Binday, 804 F.3d 558, 570 (2d Cir. 2015) (holding that misrepresentations go to an “essential element of the agreement” when the agreement they
expect to get has different risks than the agreement
they enter into due to fraud).
Calderon argues that CoBank received the benefit
of its bargain because the altered documents could not
have affected certain components of the overall transaction: the specific terms of the loan from CoBank to
IIB, the guarantee issued by the CCC to cover 98% of
the loan, or the obligation of the foreign bank to repay the loan with interest. Calderon Mem. at 14-18.
Calderon is correct that the altered documents could
not affect the terms of the loan, but that is beside the
point. Much as Lillemoe argues that the relevant decision point was the moment CoBank entered into an
agreement with IIB to confirm the letter of credit, this
argument completely ignores the other decision, the
decision to release the funds upon presentation of the
documents. See Lillemoe Mem. at 10; see also supra
section IV.A.1. It is irrelevant that the altered documents could not have changed the terms of the loan.
Calderon argues that the guarantee’s validity was
not undermined by the misrepresentations because
the GSM-102 program regulations provide that an assignee cannot be held responsible for omissions made
by an exporter of which it was unaware. 7 C.F.R.
§ 1493.120(a) (2014). This argument repeats a claim
made by Lillemoe that the indemnity clause protects

App. 70
the defendants from a charge of fraud. See Lillemoe
Mem. at 13. It is similarly dispensed with. Although it
may be true that CoBank would not have ultimately
been held liable for the misrepresentations if the
USDA determined that CoBank was unaware of the
misrepresentation, the question of whether the bank
was aware of the omission could have been disputed,
exposing CoBank to the risk of additional litigation,
and possible loss.
Additionally, Calderon’s argument that the altered documents did not change the obligation of IIB
to repay the loan is beside the point of whether or not
Lillemoe and Calderon committed wire fraud. Wire
fraud need not necessarily cause its victim a loss: it is
sufficient if the victim is deprived of its right to use its
property based on non-fraudulent information. Shaw v.
United States, 137 S. Ct. 462, 467 (2016). A criminal
defendant commits wire fraud when he or she “den[ies]
the victim the right to control its assets by depriving
it of information necessary to make discretionary decisions.” Rossomando, 144 F.3d at 201 n.5. “This right to
control theory is predicated on a showing that some
person or entity has been deprived of potentially valuable economic information.” United States v. DiNome,
86 F.3d 277, 283 (2d Cir. 1996). Thus the essential
question is whether the information altered was potentially valuable economic information.
During trial, the government put forward sufficient evidence that the withheld information was essential for CoBank to control the disposition of its
assets, because the letter of credit made the

App. 71
presentation of those documents an essential element
of the disposition of CoBank’s assets. See Ex. 250 at
¶46A (listing a copy of an original bill of lading as a
required document). CoBank put its money into the
transaction believing that the documents with which
it had been presented were complying, and the defendants’ misrepresentations deprived CoBank of the information necessary to reject the documents as noncomplying. See Trial Tr. at 508:17-509:15, 515:2-11.
Additionally, there was evidence that the defendants
were aware of this risk. See, e.g., Ex. 1327 (email from
Lillemoe to a physical exporter wherein Lillemoe tells
the exporter that the bank financing the deal “need[s]
the copy of the BL [Bill of Lading] to state “Original”
in order to accept it.”). Mindful that the court’s role in
reviewing the evidence under Rule 29 is to ensure that
a rational trier of fact could find the defendants guilty,
the court finds that there was sufficient evidence that
the defendants deprived CoBank of information necessary for it to make a discretionary economic decision
and, as such, will not disturb the jury’s verdict. See
United States v. Hawkins, 547 F.3d 66, 70 (2d Cir. 2008)
(in resolving a motion under Rule 29, the court should
make all inferences in favor of the government and not
upset the determination of the jury with regard to
facts).
The defendants also argue that they had no intent
to defraud because CoBank’s loan to IIB was guaranteed by the CCC, and thus they intended for the bank
to be made whole in the event of a loss. This argument
was put to the jury with a “no ultimate harm”

App. 72
instruction. See DiNome, 86 F.3d at 280. The jury was
instructed that:
A genuine belief that the scheme never exposed the victim to loss or risk of loss could
demonstrate lack of fraudulent intent. However, if you have found a defendant participated in the scheme for the purpose of causing
some financial or property loss to Deutsche
Bank or CoBank, any evidence of an honest
belief on the part of the defendant that somehow, ultimately, there would be no loss, will
not excuse fraudulent actions or false representations by him or her and is not good
faith. . . . [G]ood faith on the part of [the defendants] is a complete defense to the charge
of wire fraud.
Jury Charge at 64. The jury heard extensive testimony that the CCC had guaranteed the transactions
at issue. See, e.g., Trial Tr. at 672:5-14 (Womack describing the guarantee coverage on the Cool Express
transaction). The jury heard the defendants’ theory
that these guarantees protected them from the
charges of wire fraud. See Trial Tr. at 4807:4-11
(Lillemoe’s closing argument that the guarantee protected CoBank from loss on the Cool Express transaction). The jury ultimately rejected this theory, and it is
not for the court to disturb the jury’s determination
that a party’s theory was not credible. See United
States v. Strauss, 999 F.2d 692, 696 (2d Cir. 1993) (precluding every reasonable hypothesis consistent with
innocence is not necessary) (internal citations omitted).

App. 73
3. There was Sufficient Evidence that the
Misrepresentations were Material
Both Lillemoe and Calderon next argue that there
was insufficient evidence for a rational jury to determine that the defendants’ misrepresentations were
material, i.e., that the misstatements had a “natural
tendency to influence, or [were] capable of influencing,
the decision-making body to which it was addressed.”
Neder v. United States, 527 U.S. 1, 16 (1999); See
Lillemoe Mem. at 14-17; Calderon Mem. at 18-29.
Lillemoe argues that there was insufficient evidence
that CoBank cared about the difference between bills
of lading marked “original” and those marked “nonnegotiable.” Lillemoe Mem. at 15. He highlights that
Womack admitted on cross examination that CoBank
did accept non-negotiable bills of lading as complying
presentations, id. (citing Trial Tr. at 650:11-22), and
contends that the sole contrary evidence was the government’s rebuttal expert, James Byrne, who stated
that “a copy of a copy non-negotiable is not a copy of
an original.” Lillemoe Mem. at 16 (citing Trial Tr. at
4586:10-11). Lillemoe argues that no reasonable jury
could have accepted Byrne’s expert testimony over
Womack’s personal knowledge, and thus the jury’s
determination that the misrepresentations were material should be overturned. Lillemoe Mem. at 16.
Calderon makes substantially the same argument, highlighting that in another GSM-102 transaction, both CoBank and the CCC were willing to accept
a bill of lading marked “copy” and “non-negotiable.”
Calderon Mem. at 23. He also cites to Steven Lindo,

App. 74
the defendant’s GSM-102 program expert, who stated
that there was a general practice of accepting nonnegotiable bills of lading. Id. citing Trial Tr. at 3130:1422.
The court rejects the defendants’ argument that
there was insufficient evidence of the materiality of the
misrepresentations. First, even were Lillemoe correct
that the only testimony regarding the materiality of
the misrepresentations were the conflicting testimonies of Womack and Byrne cited in his brief, it is not
the court’s place to choose between conflicting witness
testimony. United States v. Ferguson, 246 F.3d 129,
133-34 (2d Cir. 2001). The question is not whether the
court agrees with the jury’s determination, but rather
whether or not any rational trier of fact could find that
the government established the defendant’s guilt beyond a reasonable doubt. United States v. Payton, 159
F.3d 49, 56 (2d Cir. 1998). Professor Byrne offered significant testimony that non-negotiable bills of lading
are different than original bills of lading. Trial Tr. at
4585-86. Womack also testified that CoBank would
not have released funds if the bills of lading had been
marked copy non-negotiable. See, e.g., Trial Tr. at
500:25-501:8, 504:13-505:5, 509:3-15, 530:5-25, 542:4543:1, 572:20-573:1. Thus, although there is testimony
that supports the defendants’ theory, there is sufficient
evidence of the materiality of the misrepresentations
to support a finding of guilt beyond a reasonable doubt.
See United States v. Best, 219 F.3d 192, 200 (2d Cir.
2000).

App. 75
Moreover, Lillemoe and Calderon ignore all of the
other testimony supporting the inference that the
banks involved in the transactions did care about
whether the copies of the bills of lading were marked
original. First, Rudy Effing from Deutsche Bank testified that his bank likewise would not have accepted altered documents. See Trial Tr. at 182:22-183:24,
215:20-216:10. Second, Lillemoe himself expressed in
emails that he believed that the banks would not accept copies of bills of lading not marked original. See,
e.g., Exs. 56, 60, 678. This additional evidence serves to
corroborate Byrne’s testimony that there is a material
difference between a copy of an original bill of lading
and a copy of a non-negotiable bill of lading. Thus, the
court will not disturb the jury’s determination that the
misrepresentation is material because there was sufficient evidence to support that determination, despite
there being some evidence to the contrary. See United
States v. Bonventre, 646 F. App’x 73, 86 (2d Cir. 2016).
B. There was Sufficient Evidence to Support the
Conspiracy Conviction of both Defendants
The defendants next argue that there was insufficient evidence to support their conspiracy convictions.
In order for the jury to have found Lillemoe and
Calderon guilty of conspiracy, it needed to find beyond
a reasonable doubt the follow elements:
1.

That two or more persons entered into the unlawful agreement to commit wire fraud, bank
fraud, or both, as charged in the Indictment,
starting on about September 2007

App. 76
2.

That the defendant knowingly and willfully
became a member of the conspiracy, with the
specific intent to commit wire fraud, bank
fraud, or both.

Jury Charge at 52; see also, 18 U.S.C. § 1349; 1 Leonard
B. Sand et al., Modern Federal Jury Instructions:
Criminal, Instruction 19-3. Lillemoe argues that the
government did not prove that he and Calderon entered into an unlawful agreement. Lillemoe Mem. at
23. The thrust of the argument is that, because the jury
acquitted their co-defendant Sarah Zirbes, who was
equally involved in the Cool Express transaction, it is
logically impossible to find that Lillemoe and Calderon
entered into an unlawful agreement that she did not
also enter into, at least with regard to that transaction.6
Lillemoe misunderstands the law governing how
the court should interpret the jury’s verdict. His argument presupposes that the court can and should tease
out the logic between the jury’s various findings of
guilty and not guilty. The law, however, is quite clear
that “one defendant’s conspiracy conviction does not
become infirm by reason of jury verdicts of not guilty
against all of his alleged coconspirators.” United States
v. Acosta, 17 F.3d 538, 545 (2d Cir. 1994). There are
6

Lillemoe goes on to explain why there was insufficient evidence to find an unlawful agreement on other transactions. See
Lillemoe Mem. at 23-26. It is not necessary for the court to look
to other transactions, because there was sufficient evidence of a
conspiracy to commit wire fraud with regard to the Cool Express
transaction.

App. 77
many reasons why a jury may or may not have rendered an inconsistent verdict and, as such, the court
should not attempt to divine the precise contours of the
jury’s determinations beyond their verdicts of guilty
and not guilty. See id. at 546; see also, United States v.
O’Connor, 650 F.3d 839, 856 (2d Cir. 2011) (“[I]nconsistent verdicts are not a ground for reversal.”).
For example, the jury may have determined that
Zirbes, as a new employee and someone not familiar
with the GSM-102 program, lacked the requisite specific intent to defraud the banks, and therefore could
not have had the specific intent to enter into the unlawful agreement. It is also possible that the jury decided to acquit Zirbes for other reasons, including a
belief that her conduct was less culpable than that of
her co-defendants. See United States v. Ferby, 108 Fed.
App’x 676, 681 (2d Cir. 2004) (refusing to reverse a conviction because of possible jury lenity). The court has
no basis to determine why the jury chose to acquit
Zirbes and, consequently, the court declines to base a
judgment of acquittal for her co-defendants on flimsy
logical arguments based on her acquittal. See United
States v. Escalera, 536 Fed. App’x 27, 31 (2d Cir. 2013)
(explaining that there are many reasons, including
compromise, lenity, or accepting certain testimony only
in part, which could explain a verdict, and therefore,
the court should not try to parse the jury’s rationale).
Calderon argues that the government failed to
prove an unlawful agreement, based on his argument
that the alterations were not unlawful, and thus an
agreement to alter the documents was not an unlawful

App. 78
conspiracy. See Calderon Mem. at 32. Because the
court has determined that there was sufficient evidence for a rational jury to find that the alterations
were unlawful, see supra section IV.A, this argument
has no force.7
After reviewing the record, the court concludes
that there was more than sufficient evidence to find
that Lillemoe and Calderon entered into an unlawful
agreement to commit at least wire fraud. As noted
above, there was ample evidence that Lillemoe and
Calderon both committed wire fraud. See supra section IV.A. The government also introduced considerable evidence that Lillemoe and Calderon worked
together in their scheme to defraud, such that the jury
could have inferred that there was an agreement to
commit wire fraud. See Exs. 3 (email from Lillemoe to
Zirbes with Calderon carbon copied, instructing her to
make the invoice and evidence of export for the same
amount of money, and that if CoBank needed them to
adjust either, they would just “do it by carrying out
the tonnage a few more decimal points.”), 6 (email
from Calderon submitting the invoices and evidence
7

Calderon also argues that there was insufficient evidence
to find intent to commit bank fraud. Calderon Mem. at 32. The
Indictment provides that the purpose of the conspiracy was to
commit wire fraud and bank fraud. Indictment at ¶ 27. It was
sufficient for the jury to find that the defendants entered into a
conspiracy to commit wire fraud, and so the court does not need
to reach Calderon’s arguments regarding bank fraud because the
court has concluded that there was sufficient evidence for a rational trier of fact to find that the defendants conspired to commit
wire fraud. See Jury Charge at 54.

App. 79
of export cited in Exhibit 3). The government also introduced evidence of other transactions in which the
defendants explicitly discussed their practice of doctoring documents, and expressed their concern that the
documents would not pass an audit. See Exs. 9, 10, 11,
12. The government also introduced substantial evidence that Lillemoe and Calderon coordinated their
businesses to facilitate their use of the GSM-102 program, including utilizing multiple companies and attempting to hide their business relationship. See, e.g.,
Exs. 51, 52. Taken together, and making all inferences
in favor of the government, there was sufficient evidence for a rational jury to find beyond a reasonable
doubt that the defendants entered into an unlawful
agreement with the object of committing wire fraud.
See United States v. James, 239 F.3d 120, 123-24 (2d
Cir. 2000).
The defendants move in the alternative for a new
trial under Rule 33. See Lillemoe Mem. at 4; Calderon
Mem. at 1. It is worth noting that the same reasons
which counsel against the court entering an order of
acquittal militate against granting a new trial. The defendants offer no evidence that a manifest injustice
has occurred, instead reiterating arguments which
were presented to the jury and ultimately rejected. A
new trial should be granted sparingly, and only where
justice so requires. United States v. Triumph Capital
Grp., Inc., 544 F.3d 149, 159 (2d Cir. 2008) (internal citation omitted). Thus, for the same reasons that the
court denied the Motion for a Judgment of Acquittal,

App. 80
and in the absence of any manifest injustice, the court
denies the Motions for a New Trial.
C. The Court’s Decision to Exclude Evidence of
the New GSM-102 Program Regulations was
Proper
Finally, Lillemoe requests that the court vacate
the jury’s verdict and grant him a new trial based on
the court’s decision to exclude evidence of the 2014 revisions of the GSM-102 program regulations. Lillemoe
Mem. at 17. He argues that the exclusion of this evidence was not harmless error, and thus a new trial
must be granted. Id. (citing United States v. Detrich,
865 F.2d 17, 21 (2d Cir. 1988)). The court excluded
this evidence under Rule 403 of the Federal Rules of
Evidence, which permits the court to exclude relevant
evidence “if its probative value is substantially outweighed by a danger of . . . unfair prejudice, confusing
the issues, misleading the jury, undue delay, wasting of
time, or needlessly presenting cumulative evidence.”
Fed. R. Evid. 403. The trial court’s determination that
the probative value of evidence was substantially outweighed by the risk of confusion will only be disturbed
if “arbitrary or irrational.” United States v. Al Jaber,
436 Fed. App’x 9, 11 (2d Cir. 2011).
The exclusion of the subsequent revision of the
GSM-102 program, as well as an excerpt from the Federal Register which explains that one of the justifications for the revision was to codify past industry
practice, was discussed at length. See Trial Tr. at

App. 81
3194:22-3203:18, 3279:4-3281:1. The court acknowledged that the revision was relevant evidence, under
Rule 401, because it informed the defendants’ theory
that their behavior was standard in their industry, and
thus did not constitute a material misrepresentation.
Trial Tr. at 3199:18-3200:04. Ultimately, however, the
court decided to exclude this evidence under Rule 403.
Id. at 3279. The regulations had low probative value
because Lindo, the defendant’s GSM-102 expert, testified as to the practice in the industry during the relevant period, and thus the new regulations, which were
offered to suggest the industry practices during the
period covered by the Indictment, were cumulative. Id.
At the same time, the new regulations had a substantial risk of confusing the jury as to what standard governed the defendants’ behavior during the relevant
period. Id. at 3280.
The court remains convinced that the probative
value of this evidence was low and, as to the relevant
time period, it was cumulative. Lindo testified that
the standard practice in the industry was for banks to
routinely accept bills of lading marked non-negotiable
during the relevant period. Trial Tr. at 3130:5-22. Thus,
the jury had before it evidence of past practice with regard to non-negotiable bills of lading. Additionally, the
preamble to the regulations in the Federal Register
does not make the defendants’ argument about codifying past practices quite as the defendants argue it
does. They cite to a sentence in the background section
of the preamble, which states that, “since [the original
regulation’s adoption], agricultural trade and finance

App. 82
practices have evolved. This final rule is intended to
reflect these changes to enhance the overall clarity and
integrity of the program.” Lillemoe Mem. at 18 (citing
Defense Ex. 2677 (Doc. No. 336-3) at 1). However, what
follows is twenty pages of specific comments and regulations dealing with all aspects of the GSM-102 program. The court has no reason to believe that the
removal of the requirement that the bill of lading be a
copy of an original was to codify the referenced changes
in trade practices, and was not one of the numerous
changes that the CCC implemented “to improve efficiency of the program . . . and protect against waste
and fraud,” which were also cited as justification for
the revision. Defense Ex. 2677 at 1. Thus, the probative
value of this evidence is low because it is not even clear
that the exhibit stands for the proposition for which
the defense offered it.
On the other side of the Rule 403 scales, the court
found that there was a substantial risk that the entry
of an additional set of complicated regulations—regulations that went into effect over two years after the
conspiracy at issue ended—would confuse the jury as
to the regulations they should be considering with
regards to the defendants’ conduct. This evidence was
excluded because its likelihood of confusing or misleading the jury far outweighed its probative value.
Thus, the court denies the portion of Lillemoe’s Motion requesting a new trial on the basis of the nonadmission of these regulations.

App. 83
V.

CONCLUSION

For the reasons set forth above, Lillemoe’s Motion
for a Judgment of Acquittal, or in the Alternative, a
New Trial (Doc. No. 336) is DENIED. Similarly, for
the reasons set forth above, Calderon’s Motion for
Judgment of Acquittal or for a New Trial (Doc. No. 337)
is DENIED.
SO ORDERED.
Dated at New Haven, Connecticut, this 16th day
of March, 2017.
/s/ Janet C. Hall
Janet C. Hall
United States District Judge

App. 84
UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
-------------------------------------------------------------------------------------------------------------------

At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 10th day of March, two
thousand twenty.

United States of America,
Appellee,
v.
Pablo Calderon,
Brett C. Lillemoe,

ORDER
Docket No: 17-1956,
17-1969, 17-2844,
17-2866

Defendants-Appellants
Appellant Pablo Calderon, filed a petition for
panel rehearing, or, in the alternative, for rehearing
en banc. The panel that determined the appeal has considered the request for panel rehearing, and the active
members of the Court have considered the request for
rehearing en banc.

App. 85
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
[SEAL]
/s/ Catherine O’Hagan Wolfe

App. 86
18 U.S.C. § 1343
§ 1343. Fraud by wire, radio, or television
Whoever, having devised or intending to devise any
scheme or artifice to defraud, or for obtaining money or
property by means of false or fraudulent pretenses,
representations, or promises, transmits or causes to be
transmitted by means of wire, radio, or television communication in interstate or foreign commerce, any
writings, signs, signals, pictures, or sounds for the purpose of executing such scheme or artifice, shall be fined
under this title or imprisoned not more than 20 years,
or both. If the violation occurs in relation to, or involving any benefit authorized, transported, transmitted,
transferred, disbursed, or paid in connection with, a
presidentially declared major disaster or emergency
(as those terms are defined in section 102 of the Robert
T. Stafford Disaster Relief and Emergency Assistance
Act (42 U.S.C. 5122)), or affects a financial institution,
such person shall be fined not more than $1,000,000 or
imprisoned not more than 30 years, or both.

18 U.S.C. § 1349
§ 1349. Attempt and conspiracy
Any person who attempts or conspires to commit
any offense under this chapter shall be subject to the
same penalties as those prescribed for the offense, the
commission of which was the object of the attempt or
conspiracy.

App. 87
7 C.F.R. § 1493.1
[2012]
General statement.
This subpart sets forth the restrictions which apply to the use of credit guarantees under the Commodity Credit Corporation (CCC) Export Credit Guarantee
Program (GSM–102) and the Intermediate Credit
Guarantee Program (GSM–103) and the criteria considered by CCC in determining the annual allocations
of credit guarantees to be made available with respect
to each participating country. This subpart also sets
forth the criteria considered by CCC in the review and
approval of proposed allocation levels for GSM–102
and/or GSM–103 credit guarantees which may be
made available in connection with export sales of specific U.S. agricultural commodities to these countries.
These restrictions and criteria are interrelated and
will be applied and considered together in the process
of determining which sales opportunities under GSM–
102 or GSM–103 will best meet the purposes of the programs.

7 C.F.R. § 1493.4
[2012]
Criteria for country allocations.
The criteria considered by CCC in reviewing proposals for country allocations under the GSM–102 or

App. 88
GSM–103 programs, will include, but not be limited to,
the following:
(a) Potential benefits that the extension of export
credit guarantees would provide for the development,
expansion or maintenance of the market for particular
U.S. agricultural commodities in the importing country;
(b) Financial and economic ability of the importing country to adequately service CCC guaranteed
debt;
(c) Financial status of participating banks in the
importing country as it would affect their ability to adequately service CCC guaranteed debt;
(d) Political stability of the importing country as
it would affect its ability to adequately service CCC
guaranteed debt; and
(e) Current status of debt either owed by the importing country to CCC or to lenders protected by
CCC’s guarantees.

7 C.F.R. § 1493.5
[2012]
Criteria for agricultural commodity allocations.
The criteria considered by CCC in reviewing proposals for specific U.S. commodity allocations within a
specific country allocation will include, but not be limited to, the following:

App. 89
(a) Potential benefits that the extension of export
credit guarantees would provide for the development,
expansion or maintenance of the market in the importing country for the particular U.S. agricultural commodity under consideration;
(b) The best use to be made of the export credit
guarantees in assisting the importing country in meeting its particular needs for food and fiber, as may be
determined through consultations with private buyers
and/or representatives of the government of the importing country;
(c) Evaluation, in terms of program purposes, of
the relative benefits of providing payment guarantee
coverage for sales of the U.S. agricultural commodity
under consideration compared to providing coverage
for sales of other U.S. agricultural commodities; and
(d) Evaluation of the near and long term potential for sales on a cash basis of the U.S. commodity under consideration

7 C.F.R. § 1493.10
[2012]
General statement.
(a) Overview. (1) This subpart contains the regulations governing the operations of the Export Credit
Guarantee Program (GSM–102) and the Intermediate
Credit Guarantee Program (GSM–103). The GSM–102
and GSM–103 programs of the Commodity Credit

App. 90
Corporation (CCC) were developed to expand U.S. agricultural exports by making available export credit
guarantees to encourage U.S. private sector financing
of foreign purchases of U.S. agricultural commodities
on credit terms. Under GSM–102, credit guarantees
are issued for terms of up to three years. Under GSM–
103, credit guarantees are issued for terms of from
three to ten years.
(2) The programs operate in cases where credit
is necessary to increase or maintain U.S. exports to a
foreign market and where private U.S. financial institutions would be unwilling to provide financing without CCC’s guarantee. The programs are operated in a
manner intended not to interfere with markets for
cash sales. The programs are targeted toward those
countries where the guarantees are necessary to secure financing of the exports but which have sufficient
financial strength so that foreign exchange will be
available for scheduled payments. In providing this
credit guarantee facility, CCC seeks to expand market
opportunities for U.S. agricultural exporters and assist
long-term market development for U.S. agricultural
commodities.
(3) The credit facility created by these programs
is the CCC payment guarantee. The payment guarantee is an agreement by CCC to pay the exporter, or the
U.S. financial institution that may take assignment of
the exporter’s right to proceeds, specified amounts of
principal and interest due from, but not paid by, the
foreign bank issuing an irrevocable letter of credit in
connection with the export sale to which CCC’s

App. 91
guarantee coverage pertains. By approving an exporter’s application for a payment guarantee, CCC encourages private sector, rather than governmental,
financing and incurs a substantial portion of the risk
of default by the foreign bank. CCC assumes this risk,
in order to be able to operate the programs for the purposes specified in § 1493.2.
(b) Credit facility mechanism. Typically, in export sales of U.S. agricultural commodities, payment
by the importer is made under an irrevocable letter of
credit. For the purpose of the GSM–102 and GSM–103
programs, CCC will consider applications for payment
guarantees only in connection with export sales of U.S.
agricultural commodities where the payment for the
agricultural commodities will be made in one of the
two following ways:
(1) An irrevocable foreign bank letter of credit,
issued in favor of the exporter, specifically stating the
deferred payment terms under which the foreign bank
is obligated to make payments in U.S. dollars as such
payments become due; or
(2) An irrevocable foreign bank letter of credit,
issued in favor of the exporter, that is supported by a
related obligation specifically stating the deferred payment terms under which the foreign bank is obligated
to make payment to the exporter, or the exporter’s assignee, in U.S. dollars as such payments become due.
The exporter may assign the right to proceeds under
the letter of credit or related obligation to a U.S. bank
or other financial institution so that the exporter may

App. 92
realize the proceeds of the sale prior to the deferred
payment date(s) as set forth in the irrevocable foreign
bank letter of credit or its related obligation. The
GSM–102 and GSM–103 programs are designed to
protect the exporter or the exporter’s assignee against
those losses specified in the payment guarantee resulting from defaults, whether for commercial or noncommercial reasons, by the foreign bank obligated under
the letter of credit or related obligation.
(c) Program administration. The GSM–102 and
GSM–103 programs will be administered pursuant to
this part and any Program Announcements and Notices to Participants issued by CCC pursuant to, and
not inconsistent with, this part. These programs are
under the general administrative responsibility of the
General Sales Manager (GSM), Foreign Agricultural
Service (FAS/USDA). The review and payment of
claims for loss will be administered by the Office of the
Controller, CCC. Information regarding specific points
of contact for the public, including names, addresses,
and telephone and facsimile numbers of particular
USDA or CCC offices, will be announced by a public
press release (see § 1493.20(c), “Contacts P/R”).
(d) Country allocations and program announcements. From time to time, CCC will issue a Program
Announcement to announce a GSM–102 and/or GSM–
103 program allocation for a specific country. The Program Announcement for a country allocation will designate specific allocations for U.S. agricultural
commodities or products thereof. Exporters may negotiate export sales to buyers in that country for one of

App. 93
the commodities specified in the Program Announcement and seek payment guarantee coverage within the
dollar amounts of specified coverage for that commodity. The Program Announcement will contain a requirement that the exporter’s sales contract contain a
shipping deadline within the applicable program year.
The final date for a contractual shipping deadline will
be stated in the Program Announcement. Program Announcements may also contain a specified “undesignated” or “unallocated” dollar amount for the purpose
that if dollar amounts specified for a specific commodity for a country become fully used, an additional allocation from the “unallocated” or “undesignated”
portion of the total country allocation may then be designated for a specific commodity. Program Announcements that include an “allocated” or “undesignated”
dollar amount will contain further information on the
“unallocated” or “undesignated” portion of the country
allocation.

7 C.F.R. § 1493.20
[2012]
Definition of terms.
Terms set forth in this part, in CCC Program Announcements and Notices to Participants, and in any
CCC-originated documents pertaining to the GSM–
102 and GSM–103 programs will have the following
meanings:
*

*

*

App. 94
(d) Date of export. One of the following dates, depending upon the method of shipment: the on-board
date of an ocean bill of lading or the on-board ocean
carrier date of an intermodal bill of lading; the onboard date of an airway bill; or, if exported by rail or
truck, the date of entry shown on an entry certificate
or similar document issued and signed by an official of
the Government of the importing country.
*

*

*

(k) Foreign bank letter of credit. An irrevocable
commercial letter of credit, subject to the current revision of the Uniform Customs and Practices for Documentary Credits (International Chamber of Commerce
Publication No. 500, or latest revision), providing for
payment in U.S. dollars against stipulated documents
and issued in favor of the exporter by a CCC-approved
foreign banking institution.
*

*

*

(z) U.S. agricultural commodity. (1) An agricultural commodity or product entirely produced in the
United States; or
(2)

A product of an agricultural commodity –

(i) 90 percent or more of the agricultural components of which by weight, excluding packaging and
added water, is entirely produced in the United States;
and
(ii) That the Secretary determines to be a high
value agricultural product. For purposes of this

App. 95
definition, fish entirely produced in the United States
include fish harvested by a documented fishing vessel
as defined in title 46, United States Code, in waters
that are not waters (including the territorial sea) of a
foreign country.

7 C.F.R. § 1493.30
[2012]
Information required for
program participation.
Before CCC will accept an application for a payment guarantee under either the GSM–102 program
or the GSM–103 program, the applicant must qualify
for participation in these programs. Based upon the information submitted by the applicant and other publicly available sources, CCC will determine whether
the applicant is eligible for participation in the programs.
(a) Submission of documentation. In order to
qualify for participation in the GSM–102 and GSM–
103 programs, an applicant must submit to CCC, at the
address specified in the Contacts P/R, the following information:
(1) The address of the applicant’s headquarters
office and the name and address of an agent in the U.S.
for the service of process;

App. 96
(2) The legal form of doing business of the applicant, e.g., sole proprietorship, partnership, corporation,
etc.
(3) The place of incorporation of the applicant, if
the applicant is a corporation;
(4) The name and U.S. address of the office(s) of
the applicant, and statement indicating whether the
applicant is a U.S. domestic corporation, a foreign corporation or another foreign entity. If the applicant has
multiple offices, the address included in the information should be that which is pertinent to the particular GSM–102 or GSM–103 export sale contemplated
by the applicant;
(5) A certified statement describing the applicant’s participation, if any, during the past three years
in U.S. Government programs, contracts or agreements; and
(6) A certification that: “I certify, to the best of my
knowledge and belief, that neither [name of applicant]
nor any of its principals has been debarred, suspended,
or proposed for debarment from contracting with or
participating in programs administered by any U.S.
Government agency. [“Principals,” for the purpose of
this certification, means officers; directors; owners of
five percent or more of stock; partners; and persons
having primary management or supervisory responsibility within a business entity (e.g., general manager,
plant manager, head of a subsidiary division, or business segment, and similar positions).] I further agree
that, should any such debarment, suspension, or notice

App. 97
of proposed debarment occur in the future, [name of
applicant] will immediately notify CCC.”
(b) Previous qualification. Any exporter that has
previously qualified under this section may submit applications for GSM–102 or GSM–103 payment guarantees. Each application must include the statement
required by § 1493.40(a)(18) incorporating the certifications of § 1493.50, including the certification in
§ 1493.50(e) that the information previously provided
pursuant to paragraph (a) of this section has not
changed. If the exporter is unable to provide such certification, such exporter must update the information
required by paragraph (a) of this section which has
changed and certify that the remainder of the information previously provided has not changed.
(c) Additional submissions. CCC will promptly
notify applicants that have submitted information required by this section whether they have qualified to
participate in the program. Any applicant failing to
qualify will be given an opportunity to provide additional information for consideration by CCC.
(d) Ineligibility for program participation. An applicant may be ineligible to participate in the GSM–
102 or GSM–103 programs if:
(1) Such applicant is currently debarred, suspended, or proposed for debarment from contracting
with or participating in any program administered by
a U.S. Government agency; or

App. 98
(2) Such applicant is controlled or can be controlled, in whole or in part, by any individuals or entities currently debarred, suspended or proposed for
debarment from contracting with or participating in
programs administered by any U.S. Government
agency.

7 C.F.R. § 1493.40
[2012]
Application for payment guarantee.
(a) A firm export sale must exist before an exporter may submit an application for a payment guarantee. An application for a payment guarantee may be
submitted in writing or may be made by telephone, but,
if made by telephone, it must be confirmed in writing
to the office specified in the Contacts P/R. An application must identify the name and address of the exporter and include the following information:
(1)

Name of the destination country.

(2)

Name and address of the importer.

(3) Name and address of the intervening purchaser, if any, and a statement that the commodity will
be shipped directly to the importer in the destination
country.
(4)

Date of sale.

(5)

Exporter’s sale number.

App. 99
(6) Delivery period as agreed between the exporter and the importer.
(7) A full description of the commodity (including
packaging, if any).
(8) Mean quantity, contract loading tolerance
and, if necessary, a request for CCC to reserve coverage
up to the maximum quantity permitted by the contract
loading tolerance.
(9) Unit sales price of the commodity, or a mechanism to establish the price, as agreed between the exporter and the importer. If the commodity was sold on
the basis of CFR or CIF, the actual (if known at the
time of application) or estimated value of freight and,
in the case of sales made on a CIF basis, the actual (if
known at the time of application) or estimated value of
marine and war risk insurance, must be specified.
(10) Description and value of discounts and allowances, if any.
(11) Port value (includes upward loading tolerance, if any).
(12)

Guaranteed value.

(13)

Guarantee fee.

(14) Name and location of the foreign bank issuing the letter of credit.
(15) The term length for the credit being extended and the intervals between principal payments
for each shipment to be made under the export sale.

App. 100
(16) A statement indicating whether any portion
of the export sale for which the exporter is applying for
a payment guarantee is also being used as the basis for
an application for participation in any of the following
CCC or USDA export programs: Export Enhancement
Program, Dairy Export Incentive Program, Sunflowerseed Oil Assistance Program, or Cottonseed Oil Assistance Program. The number of the Agreement
assigned by USDA under one of these programs should
be included, as applicable.
(17) Other information as specified in Notices to
Participants, as applicable.
(18) The exporter’s statement, “All Section
1493.50 Certifications Are Being Made In This Application” which, when included in the application by the
exporter, will constitute a certification that it is in compliance with all the requirements set forth in
§ 1493.50.
(b) An application for a payment guarantee may
be approved as submitted, approved with modifications agreed to by the exporter, or rejected by the GSM.
In the event that the application is approved, the GSM
will cause a payment guarantee to be issued in favor of
the exporter. Such payment guarantee will become effective at the time specified in § 1493.60(b). If, based
upon a price review, the unit sales price of the commodity does not fall within the prevailing commercial market level ranges, as determined by CCC, the
application will not be approved.

App. 101
7 C.F.R. § 1493.60
[2012]
Payment guarantee.
*

*

*

(f ) Ineligible exports. Commodities with a date of
export prior to the date of receipt by CCC of the exporter’s telephonic or written application for a payment guarantee, or with a date of export made after
the final date for export shown on the payment guarantee or any amendments thereof, are ineligible for
GSM–102 or GSM–103 guarantee coverage, except
where it is determined by the GSM to be in the best
interests of CCC to provide guarantee coverage on
such commodities.
*

*

*

7 C.F.R. § 1493.80
[2012]
Evidence of export.
(a) Report of export. The exporter is required to
provide CCC an evidence of export report for each shipment made under the payment guarantee. This report
must include the following:
(1)

Payment guarantee number

(2)

Date of export

(3)

Exporter’s sale number

App. 102
(4)

Exported value

(5)

Quantity

(6)

A full description of the commodity exported

(7) Unit sales price received for the commodity
exported and the basis (e.g., FOB, CFR, CIF). Where
the unit sales price at export differs from the unit sales
price indicated in the exporter’s application for a payment guarantee, the exporter is also required to submit a statement explaining the reason for the
difference.
(8) Description and value of discounts and allowances, if any.
(9) Number of the Agreement assigned by USDA
under another program if any portion of the export sale
was also approved for participation in the following
CCC or USDA export programs: Export Enhancement
Program, Dairy Export Incentive Program, Sunflowerseed Oil Assistance Program, or Cottonseed Oil Assistance Program.
(10) The exporter’s statement, “All § 1493.90
Certifications Are Being Made In This Evidence Of Export” which, when included in the evidence of export by
the exporter, will constitute a certification that it is in
compliance with all the requirements set forth in
§ 1493.90.
*

*

*

App. 103
7 C.F.R. § 1493.110
[2012]
Notice of default and claims for loss.
*

*

*

(b) Filing a claim for loss. A claim for a loss by
the exporter or the exporter’s assignee will not be paid
if it is made later than six months from the due date of
the defaulted payment. A claim for loss must be submitted in writing to the Treasurer, CCC, at the address
specified in the Contacts P/R. The claim for loss must
include the following information and documents:
*

*

*

(4) A copy of each of the following documents,
with a cover document containing a signed certification by the exporter or the exporter’s assignee that
each page of each document is a true and correct copy:
(i)(A) The foreign bank letter of credit securing
the export sale; and
(B) If applicable, the document(s) evidencing the
related obligation owed by the foreign bank to the assignee financial institution which is related to the foreign bank’s letter of credit issued in favor of the
exporter. Such related obligation must be demonstrated in one of the following ways:
(1) The related obligation, including a specific
promise to pay on deferred payment terms, may be contained in the letter of credit as a special instruction
from the issuing bank directly to the U.S. financial

App. 104
institution to refinance the amounts paid by the U.S.
financial institution for obligations financed according
to the tenor of the letter of credit; or
(2) The related obligation may be memorialized
in a separate document(s) specifically identified and
referred to in the letter of credit as the agreement under which the foreign bank is obliged to repay the U.S.
financial institution on deferred payment terms; or
(3) The letter of credit payment obligations may
be specifically identified in a separate document(s) setting forth the related obligation, or in a duly executed
amendment thereto, as having been financed by the
U.S. financial institution pursuant to, and subject to
repayment in accordance with the terms of, such related obligation; or
(4) The related obligation may be memorialized
in the form of a promissory note executed by the foreign bank issuing the letter of credit in favor of the U.S.
financial institution submitting the claim;
(ii) Depending upon the method of shipment, the
negotiable ocean carrier or intermodal bill(s) of lading
signed by the shipping company with the onboard
ocean carrier date for each shipment, the airway bill,
or, if shipped by rail or truck, the entry certificate or
similar document signed by an official of the importing
country;
(iii)(A) The exporter’s invoice showing, as applicable, the FAS, FOB, CFR or CIF values; or

App. 105
(B) If there was an intervening purchaser, both
the exporter’s invoice to the intervening purchaser and
the intervening purchaser’s invoice to the importer;
(iv) An instrument, in form and substance satisfactory to CCC, subrogating to CCC the respective
rights of the exporter and the exporter’s assignee, if applicable, to the amount of payment in default under the
applicable export sale. The instrument must reference
the applicable foreign bank letter of credit and the related obligation, if applicable; and
(v) A copy of the report(s) of export previously
submitted by the exporter to CCC pursuant to
§ 1493.80(a).
*

*

*

7 C.F.R. § 1493.120
[2012]
Payment for loss.
*

*

*

(e) Action against the assignee. Notwithstanding
any other provision in this subpart to the contrary,
with regard to commodities covered by a payment
guarantee, CCC will not hold the assignee responsible
or take any action or raise any defense against the assignee for any action, omission, or statement by the exporter of which the assignee has no knowledge,
provided that:

App. 106
(1) The exporter complies with the reporting requirements under § 1493.80 and § 1493.90, excluding
post-export adjustments (i.e., corrections to evidence of
export reports); and
(2) The exporter or the exporter’s assignee furnishes the statements and documents specified in
§ 1493.110.

ICC Uniform Customs and Practice for Documentary Credits
ARTICLE 4
Credits v. Contracts
a.

A credit by its nature is a separate transaction
from the sale or other contract on which it may be
based. Banks are in no way concerned with or
bound by such contract, even if any reference
whatsoever to it is included in the credit. Consequently, the undertaking of a bank to honour, to
negotiate or to fulfil any other obligation under the
credit is not subject to claims or defences by the
applicant resulting from its relationships with the
issuing bank or the beneficiary.
A beneficiary can in no case avail itself of the contractual relationships existing between banks or
between the applicant and the issuing bank.

App. 107
b.

An issuing bank should discourage any attempt by
the applicant to include, as an integral part of the
credit, copies of the underlying contract, proforma
invoice and the like.

ARTICLE 5
Documents v. Goods, Services or Performance
Banks deal with documents and not with goods, services or performance to which the documents may relate.
ARTICLE 14
Standard for Examination of Documents
a.

A nominated bank acting on its nomination, a confirming bank, if any, and the issuing bank must
examine a presentation to determine, on the basis
of the documents alone, whether or not the documents appear on their face to constitute a complying presentation.

b.

A nominated bank acting on its nomination, a confirming bank, if any, and the issuing bank shall
each have a maximum of five banking days following the day of presentation to determine if a
presentation is complying. This period is not curtailed or otherwise affected by the occurrence on
or after the date of presentation of any expiry date
or last day for presentation.

c.

A presentation including one or more original
transport documents subject to articles 19, 20, 21,
22, 23, 24 or 25 must be made by or on behalf of

App. 108
the beneficiary not later than 21 calendar days after the date of shipment as described in these
rules, but in any event not later than the expiry
date of the credit.
d.

Data in a document, when read in context with the
credit, the document itself and international
standard banking practice, need not be identical
to, but must not conflict with, data in that document, any other stipulated document or the credit.

e.

In documents other than the commercial invoice,
the description of the goods, services or performance, if stated, may be in general terms not conflicting with their description in the credit.

f.

If a credit requires presentation of a document
other than a transport document, insurance document or commercial invoice, without stipulating
by whom the document is to be issued or its data
content, banks will accept the document as presented if its content appears to fulfil the function
of the required document and otherwise complies
with sub-article 14 (d).

g.

A document presented but not required by the
credit will be disregarded and may be returned to
the presenter.

h.

If a credit contains a condition without stipulating
the document to indicate compliance with the condition, banks will deem such condition as not
stated and will disregard it.

i.

A document may be dated prior to the issuance
date of the credit, but must not be dated later than
its date of presentation.

App. 109
j.

When the addresses of the beneficiary and the applicant appear in any stipulated document, they
need not be the same as those stated in the credit
or in any other stipulated document, but must be
within the same country as the respective addresses mentioned in the credit. Contact details
(telefax, telephone, email and the like) stated as
part of the beneficiary’s and the applicant’s address will be disregarded. However, when the address and contact details of the applicant appear
as part of the consignee or notify party details on
a transport document subject to articles 19, 20, 21,
22, 23, 24 or 25, they must be as stated in the
credit.

k.

The shipper or consignor of the goods indicated on
any document need not be the beneficiary of the
credit.

l.

A transport document may be issued by any party
other than a carrier, owner, master or charterer
provided that the transport document meets the
requirements of articles 19, 20, 21, 22, 23 or 24 of
these rules.

ARTICLE 15
Complying Presentation
a.

When an issuing bank determines that a presentation is complying, it must honour.

b.

When a confirming bank determines that a
presentation is complying, it must honour or negotiate and forward the documents to the issuing
bank.

App. 110
c.

When a nominated bank determines that a
presentation is complying and honours or negotiates, it must forward the documents to the confirming bank or issuing bank.

App. 111
ASSIGNMENT OF PAYMENT GUARANTEE
In consideration of CoBank, ACB (hereinafter referred
to as “CoBank”) honoring one or more drafts drawn by
the undersigned under letter of credit number 3550LC
issued by International Industrial Bank (IIB), Russia
(hereinafter referred to as the “Letter of Credit”), the
undersigned hereby assigns to CoBank, ACB all of its
right, title, and interest in and to that certain Payment
Guarantee issued by the Commodity Credit Corporation (hereinafter referred to as the “CCC”) and bearing
CCC Payment Guarantee Number GSM-102-821940
the original copy of which is attached hereto as Exhibit
A (hereinafter referred to as the “Guarantee”). In the
absence of the original copy of the Payment Guarantee,
Exhibit A shall be the undersigned’s agreement to indemnify CoBank, ACB in the event the nondelivery or
late delivery of the said original copy causes loss to
CoBank. ACB.
To induce CoBank, ACB to honor the drafts and accept
this assignment, the undersigned represents, warrants, and covenants as follows:
1.

The Guarantee is in full force and effect;

2.

There are no defenses to the enforceability of the
Guarantee of which the undersigned is aware;

3.

This Assignment is legal, valid, binding on, and
enforceable against the undersigned:

4.

The undersigned has not made and will not make
any other assignment or conveyance of any interest in the Guarantee or the proceeds thereof;

App. 112
5.

The Guarantee does, or will upon the completion
of all shipments under the Letter of Credit, afford
coverage in an amount equal to the sum of:
a.

At least 98 percent of the dollar value of all
drafts presented under the Letter of Credit
(which amount equals 98 percent of the unpaid Port value of the export sale); and

b.

Interest at such rate or rates as is set forth in
the Guarantee;

6.

The date of export of each shipment is neither
prior to the date when the undersigned applied
for the Guarantee or later than the final date of
export permitted under the Guarantee;

7.

The information set forth in the Guarantee is
complete and accurate as of the date hereof and,
except as reflected on the Guarantee, no amendments to, or modifications of, the Guarantee have
been made;

8.

Without the consent of CoBank, ACB no changes
or amendments to the Guarantee will be made;

9.

The undersigned qualifies for participation in the
CCC payment guarantee program pursuant to 7
CFR Section 1493.30;

10. The undersigned is in full compliance with 7 CFR
Section 1493.90;
11. The undersigned shall comply fully with 7 (CFR
Section 1493.100;
12. The undersigned has complied and will continue
to comply, in a timely manner, with all requirements (including, without limitation, those

App. 113
requirements arising after the date hereof ) of the
CCC in obtaining the Guarantee and maintaining
the effectiveness thereof;
13. The undersigned will retain copies and agrees that
CoBank, ACB shall have access to all pertinent
books, documents, papers and records involving
transactions related to the export credit sale covered by the Guarantee for a period of five (5) years
after expiration of the coverage of the Guarantee;
14. The undersigned agrees not to amend the Evidence of Export without CoBank, ACB’s consent,
and to make no post export adjustments of any
kind without CoBank, ACB’S intermediation;
15. The undersigned will render reasonable assistance to CoBank, ACB in preparation of any claim
for a loss covered under the Guarantee;
16. The undersigned agrees that in the event any representation or warranty made herein proves to
have been false or misleading when made, or if the
undersigned fails to satisfy the covenants contained herein, it shall, at CoBank, ACB’s option,
either:
a.

Reimburse CoBank, ACB upon demand in the
amount of the draft or drafts presented under
the Letter of Credit (or, if less, in the amount
of the principal balance outstanding on the
corresponding loan or loans made by CoBank.
ACB to the issuing bank to finance its reimbursement obligation to CoBank,, ACB) plus
all interest accrued on that amount at the rate
or rates at which the issuing bank agreed to

App. 114
pay CoBank, ACB on the corresponding loan
or loans; or
b.

Indemnify and hold CoBank, ACB harmless,
under such terms and conditions as may be
acceptable to CoBank, ACB, from any and all
losses, costs, and expenses which CoBank,
ACB may suffer on account of such breach.

All terms not defined herein shall have the meaning
given to them under the Export Credit Guarantee Program.
IN WITNESS WHEREOF, the undersigned has executed this Assignment this 23rd day of December,
2009.
Company Name: Lynx Trading LLC
By:

/s/ Sarah Zirbes

Title: Authorized Representative
CoBank, ACB hereby acknowledges and accepts this
Assignment as set forth above.
Dated this 23 day of

Dec.

, 2009

CoBANK, ACB
Title:

Diane Soo

DIANE SOO
TRADE SERVICES SPECIALIST III

App. 115
UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
United States of America ) October 27, 2016
) 8:45 a.m.
Government )
3:15cr25 (JCH)
v.
)
)
Brett C. Lillemoe, et al
)
Defendants.
)
141 Church Street
New Haven, Connecticut

DAY FIFTEEN OF TRIAL
BEFORE:
THE HONORABLE JANET C. HALL, U.S.D.J.
AND JURY OF 16
APPEARANCES:
For The Government : Michael S. McGarry
John T. Pierpont
John H. Durham
U.S. Attorney’s Office
157 Church St., 23rd floor
New Haven, CT 06510

App. 116
For the Defendant
Brett C. Lillemoe

William M. McSwain
James J. Williamson
Drinker, Biddle & Reath
One Logan Square
Suite 2000
Philadelphia, PA 19103-6996

Pablo Calderon

Douglas Michael Tween
Kate Z. Machan
Linklaters LLP
1345 Avenue of the Americas
New York, NY 10105

Sarah Zirbes

Ann C. Flannery
Law Offices of
Ann C. Flannery, LLC
1835 Market Street
Suite 2700
Philadelphia, PA 19103
John P D’Ambrosio
Cowdery & Murphy, LLC
280 Trumbull St., 22nd Floor
Hartford, CT 06103
*

*

*

[3764] with that and ask you a few more questions
about that.
So among you, you meaning GTR, and the U.S.
banks, for example, CoBank and Deutsche Bank who
were involved in the deals we have seen in this case,
who bears the risk in those transactions?
A.

Well, ultimately it is me that bears the risk.

App. 117
Q. Just generally speaking, we’re going to get
into some documents, generally speaking, why do you
say that?
A. Because when I execute a transaction with –
under the program with the U.S. banks, I assign the
GSM guarantee to the banks. And that assignment is
representing, it’s giving the guarantee coverage, it is
assigning guarantee coverage to the U.S. bank, be it
Deutsche Bank or CoBank.
And in that assignment agreement is pretty
strong language that shows that the bank is protected
and indemnified against any potential harm or losses
from any possible misrepresentations made by me in
the course of assigning that guarantee. So it is pretty
iron clad.
Q. Since you mentioned the assignment agreements, why don’t we take a look at what’s been marked
as Government’s Exhibit 207, which I believe is already in evidence. In particular, page 8250.
Do you recognize this?
A. Yes, that’s a standard assignment of GSM
payment guarantee.
[3765] Q. If we can highlight in the first paragraph the GSM number, or do you see the GSM number in there?
A.

I do, GSM Number 821940.

Q. Is that one of the deals that have been a topic
of this case?

App. 118
A. That’s the COOL EXPRESS deal done with
CoBank.
Q. You see at the top, can we highlight CoBank,
please?
So this is a contract between you and CoBank?
A. Yes, a contract whereby I assign the GSM
guarantee to them, to cover the risk of the foreign
bank.
Q. Let’s go back out. Go to page 8251, please.
Let’s highlight paragraph 12.
And do you see that?
A.

Yes.

Q.
right?

The undersigned is referring to you; is that

A.
LLC.

My company, yes. In this case, Lynx Trading,

Q. What’s your understanding of that paragraph
there? What does it mean?
A. We’re representing in this assignment that we
have complied and will continue to comply with all the
requirements in connection with assigning the GSM
guarantee.
Q. Let’s take that down. Let’s go to paragraph 16.
I’m sorry, just take down the highlighting. Can you
take a [3766] moment to yourself to read that just to
familiarize yourself with it again.

App. 119
A.

Okay.

Q. The undersigned again is your company; is
that right, at the top?
A.

Yes.

Q. And what does that paragraph mean? What
does it say?
A. The top paragraph is – we’re representing
that if we make any false or misleading representation
or if we fail to satisfy any covenants contained in this
assignment, then certain things shall happen to protect CoBank.
Q. What could happen, for example, to protect
CoBank? Explain what could happen.
A. So there’s two points here. A, it is basically
reimburse them for any financial losses upon their
demand up to the full amount of the letter of credit.
Q. Does that mean that you could liable for the
entire loan amount?
A. Yes. It says that if CoBank is out any money
on the loans to the foreign bank, that we’re liable for
the full amount including interest accrued on the
amount.
Q. What are the size of some of the loans that
we’re talking about, generally speaking?

App. 120
A. This particular one six – was just over $6.1
[3767] million. Typically they can be anywhere from
2 million to 25 or 30 million.
Q. If you make a false or misleading statement,
you are not just liable for the fees that you receive but
the entire loan amount?
A.

Yeah. One deal could easily wipe me out.

Q. Take that down, please. Can we go to Government’s Exhibit 608, which has also been admitted in
evidence. And let’s go to page 7995, please.
Is this the same type of contract with CoBank just
a different deal. Can we highlight the top, please?
A. Yes, it’s the same. They are all the same. They
have always been the same standard document for assigning the payment guarantee to the confirming
bank.
Q. Let’s highlight the GSM number in this middle there, like the sixth line.
Is that the deal this one was for?
A.

Yup. GSM Number 819323.

Q. Is that the same language that we went
through before?
A.

The same exact format, document.

Q. Take that down, please. Bring up Exhibit 518,
page 1757.

App. 121
Is this the same type of agreement you had with
CoBank just on another deal that we have talked about
in this [3768] case?
A. Yes, same agreement. This GSM Number
821457, which was the Vietin, Vietnam name bank
transaction.
Q. Keep that exhibit up, we’re going to go to a
different page. Go to page 1804. Blow up the top,
please.
Which GSM number is this one for?
A. 821448, also the other one involved with the
bank in Vietnam.
Q.

Same type of agreement?

A.

Same agreement.

Q. Take that down, please. Let’s bring up just
this for identification purposes. I don’t think this one
is in evidence, Exhibit 2290. Let’s go to page 506,
please.
Do you recognize that?
A.

Yup.

Q.

Blow up the top.

Do you see the GSM number?
A.

822693.

MR. McSWAIN: I don’t believe this has been
in evidence before, so I move to admit this, Your Honor.

App. 122
THE COURT:

Any objection?

MR. DURHAM: No objection, Your Honor.
Wait a minute, is this one of the transactions? May I
have just one moment, Your Honor.
THE COURT:

Sure. It is 2290 exhibit.

[3769] MR. DURHAM:

No objection, Your

Honor.
THE COURT:
full exhibit.

It may be published. 2290 is a

BY MR. McSWAIN:
Q. So this is for GSM Number 822693 that’s been
highlighted; is that right?
A.

Yes.

Q. Same agreement as before where any misrepresentations, you are on the hook for the whole loan
amount?
A.

Exactly the same document form.

Q. Take that down, please. Go to Government’s
Exhibit 413, which is in evidence. Let’s go to page 5426
and blow that up. Highlight the GSM number.
Is that one of the deals that we talked about in this
case?
A. Yes. 819696 Banco Fibra, Brazilian Bank,
Cayman branch.

App. 123
Q. Same type of document as we have been going
through?
A.

Same document, same exact document.

Q. Take that down, please. Go to Government’s
Exhibit 410, that’s in evidence, page 6020. Highlight
the GSM number, please?
Same thing here?
A. Same thing, 189694, different bank in Brazil,
[3770] Itau.
Q. This assignment and payment guarantee is
just like the other ones in the other deals?
A.

The same.

Q.

Bring that down, please.

Do you have the same type of agreements with
Deutsche Bank, as well?
A. The same, yep, the same documents, same
protections.
Q. Has Deutsche Bank or CoBank ever come
back to you at any point after these deals were done
and attempted to collect any money from you pursuant
to these agreements?
A.

No, they haven’t.

Q. Did you ever intend to harm Deutsche Bank
or CoBank?
A.

No, I never did.

App. 124
Q. Can you explain that a little bit, please, your
thought process at the time of these deals?
A. Yeah, well, I think these assignments and the
protections given to the U.S. banks in these assignments is pretty clear proof that there couldn’t have
possibly been any harm to them because they were protected. And, no, I didn’t intend to –
Q. I’m asking about your intent, not necessarily
what –
A.

No.

[3771] Q. – was there any harm or not, but what
were you thinking at the time.
A. Well, I knew that I could be on the hook for
any transaction for the full amount, the full invoice
value, the full amount of the LC, every single transaction.
So, no, the last thing I would want to do is –
MR. DURHAM: Objection, Your Honor. I
think it is beyond the question asked.
THE COURT: I think he’s answered the
question. If you want to put a different one to him, he
could continue. think he answered.
BY MR. McSWAIN:
Q. What would be the last thing that you would
want to do, Mr. Lillemoe?

App. 125
A. The last thing I would want to do would be
to – to defraud the banks.
Q.

Why is that?

A. Because I was liable and any one transaction
could wipe out my entire – my entire net worth, my
entire business, could ruin me in one transaction.
Q. Did you ever intend for there to be some sort
of temporary loss or temporary harm to the bank that,
then, would be covered by the guarantee?
MR. DURHAM:
question, it’s leading.
*

Objection to the form the
*

*

